<html>
<title> - ATTAINING A QUALITY DEGREE: INNOVATIONS TO IMPROVE STUDENT SUCCESS</title>
<body><pre>[Senate Hearing 113-816]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-816

   ATTAINING A QUALITY DEGREE: INNOVATIONS TO IMPROVE STUDENT SUCCESS

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

   EXAMINING ATTAINING A QUALITY DEGREE, FOCUSING ON INNOVATIONS TO 
                        IMPROVE STUDENT SUCCESS

                               __________

                            OCTOBER 31, 2013

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





      Available via the World Wide Web: http://www.gpo.gov/fdsys/








                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-537 DF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          

          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             MICHAEL B. ENZI, Wyoming
BERNARD SANDERS (I), Vermont         RICHARD BURR, North Carolina
ROBERT P. CASEY, JR., Pennsylvania   JOHNNY ISAKSON, Georgia   
KAY R. HAGAN, North Carolina         RAND PAUL, Kentucky
AL FRANKEN, Minnesota                ORRIN G. HATCH, Utah
MICHAEL F. BENNET, Colorado          PAT ROBERTS, Kansas
SHELDON WHITEHOUSE, Rhode Island     LISA MURKOWSKI, Alaska
TAMMY BALDWIN, Wisconsin             MARK KIRK, Illinois
CHRISTOPHER S. MURPHY, Connecticut   TIM SCOTT, South Carolina
ELIZABETH WARREN, Massachusetts

                  Pamela J. Smith, Staff Director
        Lauren McFerran, Deputy Staff Director and Chief Counsel
               David P. Cleary, Republican Staff Director

                                  (ii)

  
















                                CONTENTS

                               __________

                               STATEMENTS

                       THURSDAY, OCTOBER 31, 2013

                                                                   Page

                           Committee Members

Harkin, Hon. Tom, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Alexander, Hon. Lamar, a U.S. Senator from the State of 
  Tennessee, opening statement...................................     2
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................     4
Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
  Maryland.......................................................     5
Hagan, Hon. Kay R., a U.S. Senator from the State of North 
  Carolina.......................................................     6
Burr, Hon. Richard, a U.S. Senator from the State of North 
  Carolina.......................................................     7
Murphy, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut....................................................    47
Baldwin, Hon. Tammy, a U.S. Senator from the State of Wisconsin..    49
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    51
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................    53

                               Witnesses

Kazis, Richard, Senior Vice President, Jobs for the Future, 
  Boston, MA.....................................................     9
    Prepared statement...........................................    11
Kirwan, William E., Ph.D., Chancellor and Chief Executive 
  Officer, University System of Maryland, Adelphi, MD............    19
    Prepared statement...........................................    20
Ralls, R. Scott, President, North Carolina Community College 
  System, Raleigh, NC............................................    24
    Prepared statement...........................................    27
Hall, Timothy L., President, Austin Peay State University, 
  Clarksville, TN................................................    30
    Prepared statement...........................................    32
LeBlanc, Paul J., President, Southern New Hampshire University, 
  Manchester, NH.................................................    34
    Prepared statement...........................................    36

                          ADDITIONAL MATERIAL

Response to questions of Senator Warren by:
    Richard Kazis................................................    64
    William E. Kirwan............................................    65
    Timothy L. Hall..............................................    67

                                 (iii)
 
   ATTAINING A QUALITY DEGREE: INNOVATIONS TO IMPROVE STUDENT SUCCESS

                              ----------                              


                       THURSDAY, OCTOBER 31, 2013

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room SD-430, Dirksen Senate Office Building, Hon. Tom Harkin, 
chairman of the committee, presiding.
    Present: Senators Harkin, Alexander, Mikulski, Hagan, 
Franken, Bennet, Whitehouse, Baldwin, Murphy, Warren, and Burr.

                  Opening Statement of Senator Harkin

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will come to order.
    Today's hearing is the second in our series to examine 
critical issues in postsecondary education as we look to 
reauthorize the Higher Education Act next year.
    The topic we will discuss today is of great interest to 
policymakers and the public, and that is, innovation; 
innovation in higher education. We have spent time previously 
in this committee discussing the role of innovation, but much 
of that was focused just on college affordability. While that 
is, of course, of paramount importance--and will probably be 
discussed again here today--I would like to spend this hearing 
examining an equally important and related subject: the 
landscape of innovations in higher education that increase 
student learning, engagement, and degree completion.
    If our Nation is going to educate more students--and by the 
year 2020, reclaim its status of having the highest proportion 
of college graduates in the world--we need to do more to ensure 
that students are persisting toward and attaining quality 
degrees. So a key question is, what can colleges and 
universities do to maximize learning and supports to ensure 
students are getting through on-time or faster and earning a 
meaningful credential?
    Today's panel explores efforts in progress at the 
institution and system-wide level, both high- and low-tech, to 
increase student success in higher education. These innovations 
can inform our committee's work in designing Federal policy, 
and determine the role the Federal Government can play in 
promoting effective change to help America regain and retain 
its global leadership.
    Too often, good innovation can be siloed either within an 
individual classroom, college, or system. So a key focus of 
today's conversation will be to discuss what we can do to allow 
proven innovations to be replicated or scaled up.
    Our panel of experts will walk us through the impetus for 
the changes they have developed, and the impact that these 
innovations are having on their students' learning experience 
and success in completing a degree.
    As I said at the start of this series of hearings focusing 
on the reauthorization of the Higher Education Act, this is no 
time to be complacent with the status quo; ``Everything is 
OK,'' is not acceptable to this committee. The stakes are too 
high, so we will need to take a tough look at reimagining how 
our higher education system can work better. But I would also 
caution, we should not waste time entertaining innovation just 
for the sake of innovation; we want to know what that 
innovation is doing to make sure that students are getting the 
most out of their college experience.
    The make up of this panel, I think, is indicative of the 
very broad scope of our higher education system and how that 
system needs to continue to innovate to meet the disparate 
needs of all the students they serve at whatever point those 
students enter our higher education system. We all understand 
that a one-size-fits-all approach simply will not do. We are 
witnessing the emergence of many new, innovative models, and 
this is a great strength of America's system. While I am proud 
that we have such a diverse system, we must ensure that all 
current and future models are rigorously focused on student 
success and degree attainment.
    I look forward to working with my Ranking Member, and all 
members of this committee on both sides to get a good higher 
education bill. One of the main parts of this is what we can do 
to further promote, stimulate, expand, and scale up innovations 
that have proven to be effective in different areas.
    I invite Senator Alexander for his opening statement.

                 Opening Statement of Senator Alexander

    Senator Alexander. Thanks, Mr. Chairman. And thanks for 
this second in the series of hearings on the Higher Education 
reauthorization.
    I am really looking forward to this. This is a 
distinguished panel of people who know what they are talking 
about, and so, that ought to inform us in terms of what we 
should be doing and what we ought not be doing.
    There was a lot of talk in our last hearing about: where is 
the innovation in higher education? In thinking about that, it 
occurs to me that innovation for its own sake is not what we 
are after. As the Chairman said, I think the goal of innovation 
in higher education is to, No. 1, improve student performance; 
No. 2, increase retention rates; and No. 3, do it in a way that 
reduces or maintains costs and encourages efficiency that 
benefits taxpayers and students.
    Two things come to mind about this approach that I will be 
looking for. You would think we have the perfect environment to 
encourage innovation in higher education unlike many other 
countries in the world. I mean in America, we think the 
American way is to have a marketplace and entrepreneurial 
spirit. We do not have a State church, we have lots of 
churches. Music springs up from various places. And that is the 
case with our colleges and universities; 6,000 different 
colleges and universities of many different types from Yeshiva, 
to Nashville's Auto-Diesel College, to Harvard, to the 
University of Maryland. I mean, these are all different places 
and we honor the autonomy of each institution. They really 
operate in a marketplace where students have a chance to choose 
them and they compete for students and scholars. So that 
environment ought to produce the largest amount of innovation.
    I think it is important to be reminded that innovation does 
not always work. I used to be involved with venture capital and 
helped to start a business that made its way from scratch to 
the Stock Exchange, and I learned along the way that most new 
businesses do not succeed and the ideas do not work.
    For example, in the 1980s when I was Governor--and we will 
hear from Mr. Hall about this--we were worried about the number 
of students who were in colleges and universities who were not 
prepared, and we thought that was wrong. We said the way to 
deal with that was to say to them, ``You can come to the 
college,'' or the community college, ``But you will not get 
credit for a course if you are not prepared for college.'' We 
are very proud of ourselves for that innovation.
    Well, it turns out, 20 years later, that probably is not 
the right thing to do. What we will hear from Mr. Hall and what 
our State is now doing is abandoning that approach, and 
admitting more people, and working harder to move them through 
the system faster. That seems to be working a lot better.
    What seems to be a good innovation at one point might not 
be later. It is a caution to us that we should be careful about 
coming up with even a very good sounding idea here and 
expecting that it will work 10 years from now, or imposing it 
on all 6,000 institutions around the country.
    A second concern I have, though, is that one would think 
that at a time when the world is changing so rapidly, and we 
have this marketplace of 6,000 institutions, that we would be 
seeing more innovation; that we would be seeing more. Now, 
maybe you will tell us that it is there, but we just do not see 
it.
    But there are some obvious things that, perhaps, we should 
do to correct that. One may be that the Federal Government is 
in the way, for example, with too many rules and regulations 
that consume time. I talked to Dr. Kirwan for a minute, and 
Senator Mikulski and I have talked many times about 
deregulation of higher education, and creating more of an 
environment in which innovation can occur.
    But also, the definition of a credit hour, not having the 
Pell grant available year-round, Federal aid rules that do not 
allow students to accelerate through coursework. I would like 
to hear your comments about that and whether these are 
impediments or there are other impediments that we, in the 
Federal Government, have erected that make it more difficult 
for you to innovate.
    The one area that seems to me that would be obvious for 
more innovation--and I think I understand a lot about why it 
has not happened, but it seems to me it has to happen--is a 
more efficient use of time and facilities at colleges and 
universities.
    George Washington University's former president, Stephen 
Trachtenberg, once told me this. He said,

          ``You could run two complete colleges with two 
        complete faculties in the facilities now used half the 
        year for one. That is without cutting the length of 
        students' vacations, increasing class sizes, or 
        requiring faculty to teach more.''

    He also pointed out that Dartmouth College has one 
mandatory summer session for every student in 4 years, and his 
estimate was that would improve, Dr. Trachtenberg's 
institution's bottom line by $10 to $15 million a year. Those 
were his ideas, yet he never did that at George Washington 
University. I understand some of the reasons for that, but 
maybe we need more of a culture of innovation.
    What I am looking forward to today is: how do we encourage 
a culture of innovation in our 6,000 institutions without 
throwing a big, wet blanket over, that smothers you, by giving 
you an order from Washington that might work at Austin Peay but 
not work at the University of Maryland? It might be good at 
Yeshiva, but not at Harvard. How do we do that? How do we get 
out of the way?
    I look forward very much to this and I thank the chairman 
for the hearing and for these excellent witnesses.
    The Chairman. Thank you very much, Senator Alexander.
    I listened very carefully to your opening remarks, and I 
thought I heard you say that music can spring from someplace 
other than Nashville, TN?
    [Laughter.]
    Senator Alexander. In fact, the Everly Brothers grew up in 
Iowa.
    The Chairman. Iowa, that is right, but they made their mark 
in Nashville.
    Senator Alexander. They moved to Knoxville and then to 
Nashville. That is right.
    The Chairman. Exactly.
    Senator Alexander. Shenandoah, right?
    The Chairman. Shenandoah, IA. Very good.
    Senator Alexander. Yes, I studied Iowa.
    The Chairman. You and a few people have been to every 
county in Iowa more than once.
    Senator Alexander. Yes.
    The Chairman. Well, thank you very much.
    Senator Alexander. Most of the Senate has.
    [Laughter.]
    The Chairman. That is true.
    We have a great panel and I am going to call on various 
Senators for purposes of introduction. We will start with 
Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you very much, Mr. Chairman.
    I am pleased to introduce Richard Kazis, who is Senior Vice 
President of Jobs for the Future in Boston, MA, which is home 
of the World Series Champions, the Boston Red Sox. I just 
wanted to be sure we got that in.
    Mr. Kazis leads the policy and advocacy efforts at Jobs for 
the Future, an organization that is dedicated to improving 
educational and economic opportunities for low-income 
Americans.
    His work at JFF focuses on policies that would improve 
outcomes for low-income community college students, promote 
college and career readiness for struggling students, expand 
effective high school models, and foster better school to 
career transitions. Mr. Kazis' dedication to expanding 
opportunity is making a real difference for students in 
Massachusetts and across the country.
    Welcome to Mr. Kazis. Thank you for taking the time to 
share your expertise.
    The Chairman. OK. Thanks.
    Senator Warren. Thank you.
    The Chairman. Thank you very much, Senator Warren.
    I invite Senator Mikulski for purposes of an introduction.

                     Statement of Senator Mikulski

    Senator Mikulski. Thank you very much, Mr. Chairman.
    It is with great pleasure that I introduce to the committee 
Dr. William Kirwan, who is the Chancellor of the University of 
Maryland System. Dr. Kirwan has a distinguished career in 
higher education--himself actually having been a faculty member 
for over 20 years.
    He also served as the president of College Park, the 
flagship university of the University System of Maryland. And 
for the last 11 years, he has been Chancellor of the University 
System. Now, that means he is essentially, and do not tell 
Governor O'Malley this, but he is like the Governor of the 
University of Maryland. He has 13 undergraduate schools, 
primarily undergraduate, though they have higher education 
tracks, and then the professional schools in downtown 
Baltimore: medicine, law, nursing, social work, and pharmacy.
    During that time, he has faced all the big challenges that 
higher education faces: rising tuitions, a changing demographic 
of the student body. Some students come prepared to get their 
degrees in 3 years; others are not prepared at all to even 
start their first year. He faced declining State aid, rising 
costs, and increased change. He established something called 
the Effective and Efficiency Initiative in which he brought new 
ideas and the concept of the faculty senate.
    Senator Alexander, I know you know--you are familiar with 
the faculty senate, because you were president of Vanderbilt--
that the faculty is very difficult. Elizabeth Warren and I 
taught in higher education, so we know what it is like to be 
members of a faculty senate. In our senate, at least we have 
rules of engagement.
    You had to really bring a lot of people together. When we 
talk about innovation, we have to remember that behind every 
great leader there is a Board of Regents, a State legislative 
body, and an internal governing body like a faculty senate. Dr. 
Kirwan was able to then, through his ideas, listen to faculty 
members and get them to take on newer courses, getting students 
to take online courses, and did many other things, including an 
increase in transfer rates from community colleges.
    His goal was to get more people in, but also make sure more 
people graduate. We will learn a lot from listening to him.
    The Chairman. Thank you very much, Senator Mikulski.
    I will turn first to Senator Hagan and then to Senator Burr 
for purposes of introduction.
    Senator Hagan.

                       Statement of Senator Hagan

    Senator Hagan. Thank you, Mr. Chairman.
    It is my honor and pleasure today, with Senator Burr, to 
introduce Dr. Scott Ralls, president of the North Carolina 
Community College System, which comprises 58 community colleges 
across North Carolina, population of about 9.5 million people. 
It is about a 30-minute drive to one of our community colleges 
from just about any place within the State, and the System has 
about 800,000 students. Dr. Ralls truly understands the needs 
of our students and the importance of a cohesive community 
college system.
    In 2009, Dr. Ralls began an initiative within the System 
called SuccessNC, with the ultimate goal of fostering students' 
success and completion of the program. SuccessNC is about more 
than registering students for classes. It is about helping each 
student who walks through the door at our community college 
reach their educational and career goals.
    Students can earn multiple nationally recognized industry 
credentials while working toward an Associate Degree. We have a 
successful model in North Carolina and it has received a lot of 
well-deserved national attention.
    Dr. Ralls has helped make our System one of the best in the 
Nation. Employers, when I talk to them in the State, they tell 
me all the time, they come to North Carolina because of our 
strong community college system and the work ethic of our 
employees and our workers.
    I can proudly say that many of our community colleges in 
North Carolina have really been working diligently over the 
past 4 years to ensure that the schools and the faculty are 
doing everything possible to better prepare students for 
success in the workforce. A couple of examples.
    Guilford Tech is working with several companies right now 
in the aircraft maintenance business, TIMCO and HondaJet, 
training students, creating employees to work for their 
company.
    Central Carolina Community College in Sanford partners with 
local companies, Coty and Caterpillar, to prepare students for 
those jobs.
    Recently, I visited Cape Fear Community College. There was 
a woman, Teresa Handy. She was unemployed. She had been laid 
off from a pharmaceutical company where she had worked for 21 
years, and she was wondering, ``What can I do next?'' She took 
classes at Cape Fear and had partnered with GE Aviation 
programs. She now has a great job at GE Aviation.
    I believe these kinds of partnerships between employers and 
our community colleges are exactly what we need to get our 
economy back on track, look at innovation, what are the 21st 
century job skills, and how can community colleges and 
educational systems make a big difference in that area.
    Dr. Ralls and many of our community college presidents 
throughout North Carolina are discussing bipartisan legislation 
called the AMERICA Works Act that I introduced with many 
others. We look forward to continuing this partnership and 
finding these innovative ways to forge these relationships to 
better prepare our students for success.
    Dr. Ralls, we certainly welcome you to the committee and we 
look forward to hearing your testimony.
    The Chairman. Thank you, Senator Hagan.
    Senator Burr.

                       Statement of Senator Burr

    Senator Burr. Thank you, Mr. Chairman.
    Let me take this opportunity to welcome all the witnesses 
today. This is a start of a very important process as we talk 
about reauthorizing.
    I am delighted to have Scott Ralls here, the seventh 
president of the North Carolina Community College System, a 
system that is over 50 years old. When you are an individual 
that comes in to change a system, to make it innovative, you 
can imagine that after 50 years exactly how many challenges he 
has run into.
    Scott is unique in many ways, but let me say that his rare 
skill is that of being an expert on both postsecondary 
education and the workforce system. I am not sure there is a 
combination that is needed more within the community college 
structure than that. And I might suggest it is not limited to 
the community college anymore; it is to all postsecondary 
education.
    I think that since taking over the helm of those 58 
community colleges, Scott has led a course redesign so that 
students are taking relevant courses that prepare them for 
employment, but also engage them in ways that promote 
completion. What a novel approach, but it is something that we 
all have to take at heart.
    He has also made, in my view, the critical connection that 
the community college system and the K-12 system cannot be 
siloed, an early understanding that has led to the dual 
enrollment and early college high school opportunities in our 
State, indeed. Dr. Ralls was talking about these opportunities 
long before they were fashionable in Federal education debates.
    I hope today that my colleagues will have an opportunity, 
not just from all the witnesses, but particularly from Scott 
Ralls. He is where the rubber meets the road. He has the 
students that we need as a productive part of a vibrant 
economy, and they are a crucial part to this economy becoming 
vibrant.
    Jobs in the 21st century look a lot different than 20th 
century jobs. Students in the 21st century must look much 
different than 20th century students. I recognize that. More 
importantly, he recognizes that, and I thank him for being here 
today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you both. Did I understand that 
correctly? Did I hear that they are making the HondaJet in 
North Carolina?
    Senator Burr. We are the State of First Flight, and I know 
you might claim that for Iowa but----
    The Chairman. I know that. But the HondaJet is being made 
there?
    Senator Burr. It is. It is the first new private jet in 30 
years.
    The Chairman. It is a fantastic concept. Can you get me a 
ride in one?
    Senator Burr. I can get you a jet, if the price is right.
    [Laughter.]
    The Chairman. I want to sit in the right seat of that one.
    Now, I will turn to Senator Alexander.
    Senator Alexander. Thanks, Mr. Chairman.
    I would say to Senator Mikulski that I am proud to have 
been a graduate of Vanderbilt, but I am proud to have been 
president of the University of Tennessee and it is important 
that I make that distinction when I go home.
    As far as the faculty senate, I once asked a former 
university president, ``What was the best thing about the 
job?'' And he said, ``The faculty as individuals.'' I said, 
``What was the worse thing?'' He said, ``The faculty as a 
whole.''
    [Laughter.]
    You may remember that Dwight David Eisenhower, after he won 
World War II, went to be president of Columbia University, 
which we never hear about very much, and the reason we do not 
is because the first day he was on the job, he said, ``On the 
first day on any new job, I like to assemble the people under 
my command.'' And he had the faculty in and he was gone in 
about a year.
    I admire university presidents very much. It is a 
challenging job. One of the best is Tim Hall. He came from Ole 
Miss to make Austin Peay University in Tennessee the fastest 
growing university in our State, enrolling almost 11,000 
students last year. The number of degrees has gone up 27 
percent, undergraduate enrollment 16 percent.
    But the more important thing for today's hearing, as a 
result of Tennessee's outcome-based formula, Austin Peay is the 
No. 1 public university in Tennessee in terms of increased 
funding. That means they have done the best job of graduating 
students more rapidly, learning what they are supposed to learn 
in their undergraduate experience.
    So I look forward to hearing from him about those 
innovations, and we are proud of the work that he does there in 
Clarksville.
    The Chairman. Thanks, Senator Alexander.
    Since we do not have a Senator from New Hampshire, I have 
the privilege of introducing Dr. Paul LeBlanc because Iowa and 
New Hampshire have a very interesting symbiotic relationship.
    Senator Alexander. I have been there too.
    The Chairman. I think it transcends party lines and 
everything else.
    Dr. LeBlanc is the president of Southern New Hampshire 
University. Over the past 9 years, under his leadership, 
Southern New Hampshire University has become the largest 
provider of online higher education in New England, and the 
first to have a full competency-based degree program approved 
by a regional accreditor and the U.S. Department of Education.
    Prior to his current position, Dr. LeBlanc directed a 
technology startup for Houghton-Mifflin publishing company and 
served as president of Marlborough College in Vermont. He was 
the first person in his family to attend college and received 
his bachelor's from Framingham State University, his master's 
degree from Boston College, and his Ph.D. from the University 
of Massachusetts.
    We welcome you all here, this is a very distinguished 
panel, indeed. All of your statements will be made a part of 
the record in their entirety. We will start with Mr. Kazis, and 
move down the line. I read your testimonies yesterday. The 
summaries were very good. If you could sum up in 5 to 7 minutes 
the major points you wish to make, and then we would like to 
engage in a conversation with you.
    Again, welcome and please proceed, Mr. Kazis.

STATEMENT OF RICHARD KAZIS, SENIOR VICE PRESIDENT, JOBS FOR THE 
                       FUTURE, BOSTON, MA

    Mr. Kazis. Thank you, Mr. Chairman, and members of the 
committee for inviting me here today.
    I commend you for taking on this critical issue of 
innovation in higher education, and I am thrilled to be here 
for two reasons. One, because it is such a terrific panel, but 
also because it was a long night in Boston last night; I was 
nervous that I was not going to make my plane this morning.
    This morning I want to briefly characterize certain trends 
in higher education innovation to improve student success 
particularly for low-income, first generation, and 
nontraditional students who are the fastest growing segment of 
college goers, and whose success is critical to national 
competitiveness. I will then suggest some actions Congress can 
take to promote some of these promising trends.
    As you know, higher education is in a period of great 
foment driven by rising student costs, State budget 
constraints, the explosion of new technologies, and better data 
on student outcomes in college and in the labor market. These 
forces create pressures on higher education, but they also 
create openings.
    A growing number of entrepreneurial leaders, like those on 
this panel, are rethinking the structure and delivery of 
college programs, expectations about student learning, and what 
it takes to help more students choose well in college, persist, 
and succeed. This is particularly true among sectors that serve 
the majority of college students, community colleges, and less 
selective 4-year public institutions, as well as online 
providers.
    Of the many challenges facing students in higher education 
today, I want to highlight one that is driving significant 
innovation. Too many college students never find their way, or 
lose their way, before they earn credentials particularly 
students with limited experience of what college demands.
    For far too many students, as one Columbia University 
researcher put it, finding a path to a degree is the equivalent 
of navigating a shapeless river on a dark night. Students do 
not have the information they need about available programs. 
They have limited guidance and are overwhelmed by their 
options. Traditional program delivery is often too rigid, but 
program requirements are often too flexible.
    The institutional and State innovations represented on this 
panel respond to this challenge. They help more students get 
the tools that they need to navigate the shapeless river before 
they enroll and throughout college, and they give the river 
itself more shape.
    While they may seem quite different, many promising higher 
education learning innovations are built from a handful of core 
design principles. These include acceleration, changes in 
program structure and delivery that help students move faster 
to earn credits and credentials. More personalized learning and 
support, which means more choices in how, when, and where 
learning occurs coupled with active advising about options and 
responsibilities. Clear pathways to credentials with value, 
meaning streamlined programs of study that guide students to 
successful transfer or a range of credentials in demand in the 
labor market. And more effective pre-college on ramps for 
underprepared students, both youth and adults that help these 
students get ready for and transition smoothly into college 
programs. You are going to hear about all of these principles 
in today's presentations.
    There are a number of reform methods based on these 
principles that are demonstrating results, evidence of success 
and moving toward large scale implementation. Many States, 
Tennessee being one of them--North Carolina, Colorado, 
Connecticut, Massachusetts--are involved in dramatic redesigns 
of developmental education based on the evidence that long, 
standalone remedial sequences are an obstacle to student 
success. These States are changing policy and their 
institutions are changing police and practice to encourage many 
more underprepared students to enroll directly in college level 
courses, coupled with targeted academic supports. And this 
model is yielding impressive early results.
    Many postsecondary institutions and systems are 
implementing and expanding career pathway programs, and you 
will hear about some of that today.
    These simplified routes to credentials that employers value 
use up-to-date labor market information to help design learning 
programs, they contextualize remediation into college-level 
instruction, they move underprepared students more quickly to 
college learning.
    Several dozen States are embracing these models, drawing 
lessons from the pioneer of Washington's I-BEST program. Other 
States, including North Carolina with its success in SEED 
program, are supporting college completion pathways for 
transfer and occupational students that combine a lot of these 
principles: mandatory and intensive advising, developmental 
education redesign, streamlined programs of study, much tighter 
employer engagement, and interventions to keep students on 
track.
    There are two other types of innovations described in my 
written testimony that I do not have time to go into detail in 
here. One is competency-based learning. Flexible online, you 
are going to hear a lot of that from Paul LeBlanc. And also 
dual enrollment and early college models for accelerating 
college credits in high school that are helping students save 
money and time on their way to a degree.
    I want to say that many of these higher education reform 
efforts, many of these ambitious efforts, use Federal 
innovation funds to get started and expand, including 
Department of Labor TAACCCT Grants and Workforce Investment 
fund grants; Department of Education Investing in Innovation, 
i3 Grants; and also Federal financial aid is often critical if 
the innovations that we are talking about for low-income 
students are to get to scale.
    As you consider the Higher Education Act Reauthorization, I 
encourage Congress to increase its commitment to the important 
role it plays as a catalyst and support for evidence-based, 
game-changing innovations.
    First, Congress should provide incentives for innovation 
and the expansion of evidence-based models that can be through 
FIPSE, community-college innovation competitions, Race to the 
Top, and other initiatives that provide States and institutions 
resources and the flexibility needed to test, develop, and take 
successful strategies to scale. The incentives should include 
priority on the principles of reform discussed here today. And 
they could include incentives that encourage States to 
implement policies that support these directions.
    In addition, Congress should carefully remove existing 
barriers to these flexible approaches in current Federal law 
and regulation on student financial aid. And finally, better 
alignment of requirements across higher education-related laws 
would make it easier to braid funding to scale some of these 
effective innovations, particularly those that straddled 
different parts of the education and training system.
    I am happy to take questions later in discussion. And thank 
you, again, for having me here.
    [The prepared statement of Mr. Kazis follows:]
                  Prepared Statement of Richard Kazis
                                summary
    This is an era of great change in higher education. Factors shaping 
opportunity and outcomes include: the rising cost of college, 
constraints on higher education budgets, the advent of online learning 
and other technological innovations, better longitudinal data on how 
students fare in postsecondary education and the workplace, and the 
growing recognition that students need a postsecondary credential to 
succeed in the job market.
    These changes are making student success much more of an imperative 
than in the past, elevating it alongside access and affordability as a 
critical national goal. As institutions and States work to increase 
access to and affordability of a postsecondary credential, they are 
also looking hard at research and trends on strategies to overcome 
significant gaps in student enrollment, persistence, and completion of 
high quality credentials and degrees, particularly for low-income, 
first-generation, and non-traditional students, many of whom enter 
college unprepared for persistence and success.
    Based on evidence and best practices, the higher education 
community has coalesced around a set of core principles of promising 
and effective innovations that promise to help more students move 
quickly and efficiently into and through credential programs with value 
in the labor market and for further education. These include:

    <bullet> Acceleration;
    <bullet> More personalized learning and advising;
    <bullet> Clear pathways through college to credentials with value;
    <bullet> Effective on ramps for underprepared students;
    <bullet> Better assessment of learning quality and value; and
    <bullet> Reforms built for large-scale impact from the outset.

    In implementing these priorities, a growing number of State systems 
and institutions of higher education are building out and scaling 
evidence-based reforms that can help more students advance more quickly 
and efficiently, including:

    <bullet> Redesign of developmental education to remove obstacles to 
college work;
    <bullet> Structured career pathways tied to high-demand industry 
sectors;
    <bullet> More flexible program design and delivery, including 
``stackable credentials,'' modular coursework, competency-based 
learning, credit for prior learning, and online or blended learning 
options;
    <bullet> More efficient on ramps for underprepared youth and adults 
to postsecondary education programs and credentials; and
    <bullet> More active advising and counseling--informed by up-to-
date labor market information and student outcome data, and designed to 
help students make good choices and persist in their chosen program.

    The Federal Government can both encourage further strides in 
innovation and encourage more States to take evidence-based innovations 
to scale, while also breaking down barriers to innovation and scale. 
Federal legislation can also play an important role in ensuring that 
innovations and access to innovations focus on the success of all 
students, including non-traditional and underprepared students. 
Congress should:

         promote innovations that accelerate student progress 
                         to quality credentials
    Provide incentives for innovation and for the expansion of 
evidence-based models through FIPSE, community college innovation 
programs, Race to the Top, or other initiatives that provide States and 
institutions with the resources and flexibility needed to test, 
develop, and take successful strategies to scale.

    Provide incentives for States and postsecondary institutions to 
develop policies and approaches that help accelerate student progress 
into and through quality programs of study to credentials, prioritizing 
innovations based on the above principles
    Reward colleges, or encourage States to reward colleges, that serve 
low-income students well, as measured by college enrollment, 
persistence, completion, and employment outcomes. Rewards could include 
funding and flexibility to innovate.
    Provide incentives for employers and institutions to partner in the 
development and delivery of career pathways to credentials with value 
in the labor market.
    Provide incentives for developing competency-based programs of 
study that are not based solely on the credit hour and that result in 
significant acceleration of credential attainment, particularly for 
nontraditional, low-income and underprepared students.
    Encourage and support technical assistance and peer connections to 
promote the rapid spread of promising and effective innovations, so 
Federal investments maximize impact.
  reduce existing federal policy barriers to innovations that support 
                            student success
    Revise financial aid policies so they encourage broad access to 
success innovations and remove existing obstacles for non-traditional 
and underprepared students.

    Restore Ability to Benefit, a Federal student aid provision 
eliminated in the fiscal year 2012 Appropriations bill that was a key 
route into quality career pathways for adults without high school 
credentials.
    Reinstate Year-Round Pell, which is increasingly important as 
institutions move toward modular coursework, stackable credentials, and 
programs that fit students' schedules.
    Encourage Federal financial aid rules, experimental sites, and 
waivers for flexibility, that allow low-income students to access aid 
for innovative accelerated pathways, including non-semester coursework, 
that decrease time to completion and reduce student costs.

    Align Federal laws related to higher education and workforce 
preparation--HEA, ESEA, Perkins, WIA--so that requirements (e.g., 
eligibility, reporting, performance metrics) are not an obstacle to 
institution and system-level success innovations.

    These Federal education laws can support State and institutional 
efforts by consistently placing a specific emphasis and premium on 
student success among underrepresented and underprepared students.
                                 ______
                                 
    Thank you, Mr. Chairman and members of the committee for inviting 
me here today--and for assembling such a strong group of panelists to 
discuss innovative strategies for student success.
    My name is Richard Kazis. I am senior vice president at Jobs for 
the Future, a 25-year-old national research and policy organization 
based in Boston committed to helping increase the number of 
underprepared youth and adults who earn a first postsecondary 
credential. JFF works with innovators around the country--with K-12 and 
higher education leaders, State education and workforce systems, 
community-based organizations, employers and their associations--to 
identify and increase the scale of programs and approaches that help 
more Americans succeed in quality higher education programs aligned 
with labor market demand.
         a period of change and innovation in higher education
    Higher education is frequently derided as resistant to change, an 
immovable defender of tradition. If we went back to the colleges we 
attended, the argument goes, we would feel pretty much at home, even 
after several decades away.
    But in fact this is not an accurate characterization of higher 
education today, particularly at those institutions that serve the 
majority of college students--community colleges, less-selective 4-year 
public institutions, and the growing online segment of higher 
education.
    Higher education is in the early stages of a period of significant 
innovation, of rethinking the structure and delivery of college 
programs, expectations about student learning, and what it takes to 
help more students choose well in college, persist in their chosen 
program, and succeed. Across the country, there has been a sea change 
in the past decade in the commitment of forward-looking colleges and 
universities to student success. We have a long way to go, but a 
growing cadre of innovative institutional and State system leaders are 
demonstrating that significant improvements in learning and completion 
for large numbers of students are within reach.
    Four of the best are on the panel today.
    The past decade has witnessed a huge shift in thinking about higher 
education's goals: from a dominant focus on student access to higher 
education to a recognition that higher education institutions have an 
equal responsibility to improve student success--entry into quality 
programs, persistence, completion, and advancement in the labor market. 
Several factors have combined to drive this change.

    <bullet> Higher education has become the primary gateway to 
economic success, and tuition and debt have risen steadily. The 
economic costs of poor performance have become very high.
    <bullet> At the same time, in this era of increasingly constrained 
public investment, accountability for results from every public dollar 
has become a central concern in debates on State higher education 
budgets and investments.
    <bullet> Data systems tracking student performance have become more 
robust, thanks in part to significant Federal investment in State 
longitudinal data systems. Gaps in college persistence and completion 
have become more visible. And better data has also helped fuel the 
growth of solid research on effective strategies for helping different 
population groups learn at higher levels and succeed in college.

    This is the context within which institutional and State-level 
innovations to improve student success are taking shape. Persistence, 
quality, and completion have become equal legs of the higher education 
stool, along with access and affordability. And institutional and State 
leaders are responding. While innovation needs to spread farther and 
faster, with the help of supportive policies and the diffusion of 
effective practices, many States and their colleges and universities 
are taking on this agenda--and beginning to see results.
    Today, I will comment on the innovation we see getting traction in 
higher education institutions and systems around the country. I will: 
(1) characterize the problem that many of the most promising efforts 
are addressing and the kinds of solutions that are emerging; (2) 
provide examples of how States and institutions are reforming basic 
aspects of instruction and delivery to achieve better outcomes; and (3) 
suggest actions Congress can take to support and accelerate these 
trends, with particular attention to ensuring improved learning and 
labor market outcomes for low-income, traditional and first-generation 
college-goers.
                 ``a shapeless river on a dark night''
    Too many students in higher education never find their way, lose 
their way early in their college career, or have to drop out before 
they earn credentials that help them move ahead. The structure of 
higher education itself stands in the way of many students' success, 
particularly first-generation, underprepared, and low-income students 
with limited experience of what college demands.
    Students underprepared for college level work face huge challenges, 
and over 40 percent of all college students require some math or 
English remediation. Yet only 25 percent of developmental education 
students in community college earn any credential within 8 years. The 
current model of delivering basic skills as a stand-alone pre-requisite 
results in the loss of too many students who could have quickly 
succeeded in college-level courses with well-designed academic support.
    Students who balance family, school and work need alternatives to 
traditional programs and delivery strategies that take too long to 
complete. Forty percent of public college and university students are 
able to attend only part-time--and that one decision results in 
completion rates as much as 30 percent lower than those for their full-
time peers.
    In American higher education, the most efficient and appropriate 
routes for students to take--from choice of school and program to 
decisions about course loads and schedules--are poorly marked. Students 
don't have the information they need about the programs available to 
them--the course sequences and requirements, the odds of completion 
given their academic preparation, transfer requirements, or labor 
market pay off. Students have limited guidance and are overwhelmed by 
too many options. Columbia University Teachers College researcher 
Judith Scott-Clayton has written, ``For many students at community 
colleges, finding a path to a degree is the equivalent of navigating a 
shapeless river on a dark night.''
  an emerging consensus on innovation priorities: completion pathways
    A consensus has emerged across public higher education--in 
community colleges in particular but also among 4-year systems--that 
the students least prepared for college success need much more help 
navigating the ``shapeless river'': before they enroll in college, when 
they first enroll, and throughout their college careers. They need more 
information about their options and the outcomes they should expect 
from different programs and far more guidance at every step of the way 
on how to persist, learn the right things, and complete requirements as 
efficiently as possible. At the same time, they need options that are 
more streamlined, more choices that respond to their need for 
flexibility in learning delivery, and pathways to completion that are 
more transparent and clear.
    This consensus has spawned a range of creative innovations in the 
design and delivery of postsecondary education that are showing promise 
as strategies to meet students where they are and help them achieve 
greater success in both college and the labor market. Innovations like 
those you will hear about today are based on a few core principles of 
efficient completion pathways that provide faster, highly structured 
academic experiences for students, even as they increase the ability of 
individuals to make informed choices about potential programs based on 
their structure, delivery, content, and expected outcomes. These 
principles are:

    <bullet> Acceleration;
    <bullet> More personalized learning and advising;
    <bullet> Clear pathways through college to credentials with value;
    <bullet> Effective on ramps for underprepared students;
    <bullet> Better assessment of learning quality and value; and
    <bullet> Reforms built for large-scale impact from the outset.

    Acceleration is perhaps the overarching design principle, 
recognizing the growing imperative to help students advance more 
quickly toward their goals and toward credentials. These strategies, 
many of which break with traditional college practices, schedules and 
requirements, include:

    <bullet> Redesigned remedial education delivery that minimizes the 
need for long stand-alone sequences of developmental courses that keep 
too many from ever entering or succeeding in their chosen program of 
study;
    <bullet> Degree programs broken down into shorter modules and 
``stackable'' intermediate credentials that enable individuals to earn 
a credential with labor market value, advance at work, and then return 
to complete additional modules that roll up to a higher level 
credential;
    <bullet> Early college and career pathways programs that span 
different segments of the education system and speed students' progress 
across them (e.g., from K-12, adult education or programs serving 
disconnected youth to postsecondary credits and success);
    <bullet> Credit for prior learning that recognizes students' 
current skills and speeds up their attainment of credential and degree 
requirements; and
    <bullet> Other competency-based programs and strategies that make 
it possible for students to advance at their own pace through basic 
skills, credit courses, and degree or certificate programs.

    More personalized learning and advising: Innovative colleges are 
becoming more responsive to the varied needs of individual students 
rather than prioritizing institutional and faculty considerations. They 
are experimenting with flexible delivery of coursework through online 
or blended learning, adapting scheduling to the needs of working 
students, and testing competency-based approaches to earning credits 
and credentials. They also recognize that students need much better 
information and advising on their course and program options, both in-
person and online, from the moment they enroll and throughout their 
education. To complement overextended counseling staff, a growing 
number are turning to online advising tools that integrate career 
exploration, program choice, course planning, and--for students who are 
having trouble meeting course or program requirements efficiently--
early warning notification and referral to academic and other support 
services. Sophisticated new ``real time'' labor market information 
tools are being used to help institutions revamp curricula to better 
meet regional employer needs--and to helping students make better 
informed choices among potential programs of study.
    Clearer pathways from program enrollment to credentials: To 
increase the likelihood of timely and efficient completion, 
institutions and systems are redesigning many programs of study to have 
fewer electives, a clearer sequence and progression of courses required 
for completion, and more transparent presentation to students of the 
expectations for and past outcomes of those pathways. Some articulate 
these shorter certificates, one to the next, in ``stackable'' 
credentials that ultimately lead to terminal credentials or degrees in 
a field of study. Some are rolling back the number of credits required 
for completing certain programs, focusing training on students' skills 
gaps and, as described above, providing credit for prior learning or 
certificates. To strengthen these pathways, a growing number of systems 
and colleges are using better labor market information to define 
learning outcomes and shape curricula. To ensure that transfer of 
general education and program of study credits is simplified, States 
and higher education systems are reviewing and aligning program 
requirements within and across sectors.
    On-ramps to college success: For underprepared and first-generation 
college students, both youth and adults, these innovations will have 
limited value without new and more effective on-ramps that prepare 
students with the academic and non-academic skills they need to succeed 
in college. Partnerships between K-12, adult education, and 
postsecondary education institutions are emerging to ready 
underprepared youth and adults for postsecondary success. Dual 
enrollment and early college programs in high schools provide high 
school students with a college-going culture and college credits that 
can reduce the cost and time commitment required to complete a college 
program. Career pathways programs for low-skilled adults and 
disconnected youth co-enroll students in adult education and 
postsecondary occupational coursework, providing college credit to 
students while they are still working on their basic academic or 
English language skills. Reconnection pathways for disconnected youth 
implemented by partnerships between colleges and national youth-serving 
networks such as the Corps Network, the National Youth Employment 
Coalition, and YouthBuildUSA show promising enrollment and persistence 
improvements in early research. These and other similar models show 
great promise in terms of college readiness, enrollment, credits, 
acceleration and persistence for these populations.
    Better assessment of learning quality and value: Just as in K-12 
reform, an early focus on gaps in college completion has led to greater 
attention to questions of the quality of the learning and return on 
investment in postsecondary education. Systems and institutions are 
making learning expectations clearer and experimenting with better ways 
to assess learning and measure learning outcomes. This can be seen in 
foundation-funded and other initiatives to define and assess learning 
quality. But it is also evident in the growing efforts to get feedback 
from employers on the productivity and contribution of new graduates 
from specific pathway programs and to use that feedback to improve 
curricula. In the coming years, attention to specifying the value added 
of higher education for further education and employment will only 
increase.
    Building in scale from the beginning: What is striking about much 
of the current wave of reform is its ambition and reach. Impatient with 
the proliferation of small, boutique programs that are high cost and 
difficult to replicate at large scale, reformers in higher education 
are looking to create innovations that reach large numbers of students 
quickly by changing some of the core practices of institutions, such as 
the delivery of remedial instruction, the process for assessing 
competencies and granting postsecondary credit, student advising and 
orientation, and the alignment of learning expectations and career 
pathways across institutions and sectors.
                     evidence of progress and scale
    A growing body of evidence points to the potential for impact of 
reforms informed by these principles. Here are a few examples:

    <bullet> Redesigns of developmental education that minimize time 
spent in developmental courses in favor of placing students into 
college level courses with aligned and contextualized academic supports 
are demonstrating dramatic early results.
    For example, The Accelerated Learning Program at the Community 
College of Baltimore County, designed for students who enroll in upper-
level developmental writing, ``mainstreams'' students into introductory 
college-level English, but requires a companion course to help them 
succeed. Researchers found that 82 percent of ALP students passed 
English 101 within 1 year, compared with 69 percent of students who 
took the more traditional sequence. Other gains included higher rates 
of completion in the next credit English course, stronger persistence 
to the next year, and completion of more college-level courses. A cost-
effective alternative, it has already been adopted by over 100 
colleges; and Arkansas, Indiana and Michigan have launched statewide 
implementations.
    Statway, a 1-year math course that combines remediation with a 
first year college statistics course, is having similar success. In 
second-year results across 30 campuses in eight States, over 50 percent 
of participating developmental math students successfully completed a 
college-level math course, compared to 9-16 percent of students in 
traditional remedial sequences.
    <bullet> Career Pathways programs, which redesign the delivery of 
career-focused education, training, and employment services to be more 
integrated, aligned, and participant-centered, are also showing clear 
gains in student success.
    Washington State's Integrated Basic Education and Skills Training 
(I-BEST), which combines basic skills and occupational training in the 
same courses, is a pioneer in contextualized instruction for adults. 
Quasi-experimental studies have found that I-BEST students complete 
more credits, have higher persistence rates, and are more likely to 
earn a certificate than their peers. Around the country, colleges and 
States are using lessons from I-BEST to create career pathways that 
accelerate and structure progress to credentials with value in the 
labor market.
    <bullet> Early college and dual enrollment approaches to aligning 
and accelerating college readiness and success for underprepared young 
people yield consistently strong outcomes.
    Early college high schools around the country, serving a largely 
low-income, first-generation population, have a 4-year graduation rate 
of 93 percent (compared to the national rate of 78 percent. More 
impressive, nearly one-quarter (23 percent) of students earn an 
associates degree or certificate by the time they finish high school 
and 94 percent earn some college credits, with the average being 36 
credits earned, saving time and money on the way to a postsecondary 
credential.
    Dual enrollment has become an important accelerator for high school 
students. Student participation in dual enrollment is positively 
related to higher GPA, more credit accumulation, and higher rates of 
college enrollment and persistence. One recent study found that dual 
enrollment students at the University of Texas-Pan American had a 49 
percent 4-year graduation rate, compared with 14 percent for the total 
student body.

    Innovations like these are yielding promising results at 
institutions where they are implemented.
    Equally important, these and other promising efforts built on the 
principles of more efficient completion pathways to credentials, are 
diffusing nationally as institutions and State systems are eager to 
identify evidence-based and efficient strategies for improving 
institutional performance and student success.
    Here are some examples of such diffusion and scale:

    <bullet> Many States are undertaking full-scale redesigns of the 
delivery of developmental education, including Arkansas, Colorado, 
Connecticut, Florida, Massachusetts, North Carolina, Tennessee and 
Virginia. Virginia, for example, has completely overhauled delivery of 
developmental education at all 23 of its community colleges--a bold 
approach that required major changes to everything from assessment and 
placement to financial aid administration. Colorado's community college 
system is implementing a creative statewide approach to developmental 
education redesign that reduces remediation dramatically, pushes more 
students into credit courses with appropriate supports, and aligns 
basic skill requirements with the English and math demands of different 
pathways to credentials. As you will hear from the representative of 
Austin Peay University, Tennessee is a leader in this redesign across 
both its 2- and 4-year institutions.
    <bullet> Jobs for the Future is a national assistance partner to 
Completion by Design, a structured pathways redesign initiative that 
involves nine community colleges across the States of Florida, North 
Carolina and Ohio. Based on a sweeping analysis of their student 
outcomes data for different population groups and programs, these 
colleges are implementing model pathways to completion that are built 
upon the foundation of the principles highlighted here, such as: more 
active ``on-boarding'' activities such as mandatory orientation; 
structured and streamlined programs of study; intensive advising and 
career counseling; developmental education redesign and acceleration 
into credit courses; and supports designed to keep students engaged and 
progressing toward a credential with labor market value. North 
Carolina's community college system has incorporated this approach into 
its overall success agenda and is rolling it out across the State's 
institutions.
    <bullet> Kentucky's community and technical college system has 
created a statewide online competency-based learning program, primarily 
for working adults, called Learn on Demand. Learn on Demand offers both 
full courses and modules that last about 3-5 weeks. Students can start 
whenever they want, take what they need, and earn credit for every 
module completed. Modules build toward complete courses for accredited, 
affordable degrees, certificates, and diplomas. Programs are 
transferable and accredited and are recognized across the State's 16 2-
year colleges. Learn on Demand is only one component of the State's 
approach to creating flexible career pathways that help students move 
more quickly to credentials. Kentucky is part of a seven-State 
initiative called Accelerating Opportunity that is adapting I-BEST 
career pathways model to Kentucky's regional employer base. Kentucky is 
also a leader in the testing of using innovative ``real time'' labor 
market information to help shape program curricula and inform students' 
choice of program.

    These are but a few examples. You will hear more in today's hearing 
from both 4-year and 2-year institutions and State systems.
    It should be noted that States and colleges often use Federal 
innovation funds to build and expand these innovations and evidence-
based models: recently, the Department of Labor's TAACCCT grants, and 
Workforce Investment Fund grants have been helpful, as have the 
Department of Education's Investing in Innovation (i3) and Race to the 
Top competitions. While the ultimate goal is institutionalization of 
these new approaches in State and college practice and policy, Federal 
policy can play an important catalytic role in helping to spur 
postsecondary innovation and remove obstacles as well.
                      recommendations for congress
    As you consider reauthorization of the Higher Education Act, I 
respectfully submit the following recommendations for your 
consideration, with the goal of helping more low-income youth and 
adults obtain postsecondary credentials with value in the labor market, 
with particular emphasis on underprepared and non-traditional students.
I. Promote Innovations that Accelerate Student Progress to Quality 
        Credentials and Outcomes
    Provide incentives for innovation and for the expansion of 
evidence-based models through FIPSE, community-college innovation 
programs, Race to the Top, or other initiatives that provide States and 
institutions with the resources and flexibility needed to test, 
develop, and take successful strategies to scale.

    Provide incentives for States and postsecondary institutions to 
develop policies and approaches that help accelerate student progress 
into and through quality programs of study to credentials, prioritizing 
innovations such as:

    <bullet> More active advising and counseling--informed by up-to-
date labor market information and student outcome data and designed to 
help students make good choices and persist in their chosen program.
    <bullet> Redesigned developmental education requirements that 
minimize standalone course work, accelerate enrollment in appropriate 
college-level courses and provide adequate academic support.
    <bullet> Clear and efficient evidence-based on-ramps to 
postsecondary education pathways, including:

        <bullet>  Career Pathways systems (as defined by ED, DOL, HHS) 
        for low-skilled adults, that include the concurrent enrollment 
        of students in adult education and postsecondary occupational 
        coursework.
        <bullet>  Proven Early College High Schools and dual and 
        concurrent enrollment strategies to reduce remediation needs, 
        costs to students, and time to degree completion--particularly 
        among low-income and underrepresented students. Include 
        incentives for work-based learning, as well as incentives for 
        pathways through postsecondary education serving disconnected 
        youth.

    <bullet> More streamlined pathways to valued credentials: Limits on 
excess student credits, clear and specified transfer cores in key 
programs, and incentives for more rapid completion of credential 
requirements.

    Reward colleges, or encourage States to reward colleges, that serve 
low-income students well, as measured by college enrollment, 
persistence, completion, and employment outcomes. Rewards could include 
funding and flexibility to innovate.
    Provide incentives for employers and institutions to partner in the 
development and delivery of career pathways to credentials with value 
in the labor market.
    Provide incentives to States or regional partnerships that include 
postsecondary institutions for developing competency-based programs of 
study that are not based solely on the credit hour--but that test 
credit for prior learning, articulation of non-credit coursework with 
academic credit, and provide training geared to students' skills gaps 
in ways that significantly accelerate credential attainment, 
particularly for nontraditional, low-income and underprepared students 
who might need additional supports.
    Encourage and support technical assistance to and peer connections 
among leader institutions, States, and others to promote the rapid 
spread of promising and effective innovations, so that Federal 
investments in postsecondary innovation have maximum impact in the 
field.
II. Reduce Existing Federal Policy Barriers to Innovations that Support 
        Student Success
    Revise financial aid policies so they encourage broad access to 
success innovations and remove obstacles that currently exist for non-
traditional and underprepared students.

    Restore Ability to Benefit (ATB). Elimination of the Ability to 
Benefit provision in Federal student aid (eliminated in fiscal year 
2012 appropriations) has devastated Career Pathways initiatives that 
co-enroll students in adult education and postsecondary education 
coursework, and added yet another barrier to success for these 
underprepared students. ATB allowed students without a GED or high 
school diploma to receive student aid once proving their ``ability to 
benefit'' through testing or successful completion of 6 credit hours. 
We thank members of the committee for working hard to reinstate this 
provision through last year's appropriation process, but it remains 
unresolved. HEA reauthorization or other higher education-related 
vehicles should reinstate this critical provision--at the very least 
for students in Career Pathways programs where the evidence is clear--
so that this motivated but underprepared population can access Federal 
student aid while concurrently enrolled in a Career Pathways program 
and begin to accumulate credit for postsecondary coursework.
    Reinstate Year-Round Pell. Another provision eliminated in fiscal 
year 2012 Appropriations, year-round Pell is important to helping 
lower-skill youth and adults move more efficiently into and through 
postsecondary credential programs--accelerating course-taking 
flexibility and pace, which will be increasingly important as 
institutions move toward modular coursework, stackable credentials, and 
programs that fit students' schedules.
    Encourage Federal financial aid rules, and waivers for flexibility, 
that allow students to access aid for innovative accelerated pathways, 
including pathways that use modularized, condensed, or competency-based 
courses and other non-semester coursework that decrease time to 
completion and reduce student costs. HEA should encourage States to 
remove such obstacles from State aid provisions as well. Last, Federal 
student aid experimental sites could test out newer innovations and 
more flexible forms of student aid to help students access these 
innovations (for example, stackable credentials, modular coursework, 
and early college or other credit-bearing postsecondary coursework 
completed in high school).

    Align Federal laws related to higher education and workforce 
preparation--HEA, ESEA, Perkins, WIA--so that requirements (e.g., 
eligibility, reporting requirements, performance metrics) are not an 
obstacle to institution and system-level student success innovations.

    The Higher Education Act and K-12 legislation can be better aligned 
to promote and measure student success, such as enrollment, 
persistence, and completion of college credentials and degrees; as well 
as to promote better aligned expectations of skills and supports 
students need to succeed in college
    The Higher Education Act could also align more closely with the 
Carl D. Perkins Career and Technical Education Act and the Workforce 
Investment Act to measure success more comparably, and to promote 
postsecondary success as a goal of all programs (particularly in high 
demand careers), given the need for today's workforce to obtain 
postsecondary credentials.
    These Federal education laws can support State and institutional 
efforts by placing a specific emphasis and premium on student success 
among underrepresented and underprepared students.

    The Chairman. Thank you very much, Mr. Kazis.
    Dr. Kirwan, welcome and please proceed.

  STATEMENT OF WILLIAM E. KIRWAN, Ph.D., CHANCELLOR AND CHIEF 
 EXECUTIVE OFFICER, UNIVERSITY SYSTEM OF MARYLAND, ADELPHI, MD

    Mr. Kirwan. Thank you very much, Mr. Chairman and members 
of the committee.
    It is an honor to be here today, and it is a special 
privilege to be here as a proud constituent of Senator 
Mikulski's.
    I want to express my appreciation to the committee members 
for the important work you have done and continue to do on 
behalf of higher education. I am especially pleased that you 
are focusing on the issue of innovation in higher education 
delivery. I think we are at an important moment in higher 
education, brought about by three dynamics.
    First, the fiscal challenges requiring higher education to 
do more with less if we are to meet our obligations to the 
Nation.
    Second, advances in information technology, the creation of 
intelligent software, and the ubiquitous nature of the 
Internet, which has the potential to transform our Nation's 
college classrooms.
    And third, developments in cognitive science, or the 
learning sciences. We actually know so much more today about 
the kind of activities that imprint knowledge on the brain. The 
potential to improve teaching and learning, using IT and 
cognitive sciences as a tool, serve more students, and bend the 
cost curve creates the most exciting opportunity I have 
experienced in my 50 years in higher education.
    Let me describe what we are doing in the University System 
of Maryland to realize this opportunity. By way of context, the 
University System of Maryland consists of three research 
universities, three historically Black universities, five 
traditional so-called comprehensive universities, a specialized 
research institute, and the University of Maryland University 
College, the Nation's largest not-for-profit online university. 
As such, we are a microcosm of higher education in America.
    University College is widely known for its innovative use 
of technology and the Internet, so my remarks today will focus 
on our other residential institutions.
    Six or seven years ago, we began our efforts to redesign or 
reengineer our lower division educational offerings through the 
use of technology, online tutorials, and active learning 
classrooms.
    One of our early successes was Chemistry 101 at the 
University of Maryland Eastern Shore, a historically Black 
institution. This course had a high failure rate: above 50 
percent. With the redesign, the pass rate increased to over 70 
percent, and we documented substantial reduction in costs for 
course delivery.
    Armed with this success, we began a systematic effort to 
redesign our lower division gateway courses across the System; 
the very courses that are the primary roadblock for many 
students. By the end of this year, we will have redesigned some 
80 courses across the University System of Maryland, serving 
more than 24,000 students in any one semester. In all of these 
courses, we have documented improved student success and lower 
costs.
    Our approach is to actively support and encourage our 
faculty to engage in teaching innovation, using technology, 
active learning classrooms, online tutorials, and constant 
feedback to students on their performance.
    However--and this is the point that Senator Alexander 
made--we insist that innovations must be tested and piloted to 
ensure that learning does actually improve and that costs are 
actually contained. If either does not occur, we do not let the 
innovation proceed.
    As part of our innovation agenda, we are engaged in a very 
important study of so-called MOOC's, Massively Open Online 
Courses. Most of the focus on MOOC's today is how they might 
bring educational opportunities to students not enrolled in 
traditional higher education institutions. In partnership with 
the nonprofit ITHAKA and Coursera, the largest MOOC producer, 
and with funding from the Gates Foundation, we are testing 
whether MOOC's can be used on residential campuses to improve 
educational outcomes and lower costs. We have 23 pilots 
operating across the System to test this hypothesis. The 
results of this experiment will be available this June.
    I will conclude my remarks by noting that we, in higher 
education, have a responsibility, an obligation, really, to 
find lower cost means of delivering high quality higher 
education. We in the University System of Maryland take this 
responsibility very, very seriously.
    As Congress begins the process of reauthorizing the Higher 
Education Act, I urge you to consider provisions that promote 
and encourage the kind of innovations I have described today.
    I am also pleased to hear Senator Mikulski and Senator 
Alexander mention deregulation of higher education. That should 
be an important consideration as you proceed with the 
reauthorization.
    As I indicated at the outset of my testimony, thanks to the 
power of IT, the development of intelligent software, and 
advances in cognitive sciences, we have an opportunity at this 
moment that comes along only rarely in higher education. I 
genuinely believe that the potential now exists to use these 
advances, improve learning outcomes, and reduce the costs of 
educational delivery.
    Thank you very much.
    [The prepared statement of Mr. Kirwan follows:]
        Prepared Statement of William E. ``Brit'' Kirwan, Ph.D.
                                summary
    We are witnessing the confluence of several key developments 
surrounding the higher education enterprise. First, even as higher 
education faces acute cost pressures, the importance of college 
completion has moved to the forefront of our national conversation. 
Second, we are seeing advancements in technology--speed, adaptability, 
scalability--that we have barely begun to exploit. Finally, new 
cognitive research has dramatically increased our understanding of how 
people learn, process, and retain information.
    The potential for the use of sophisticated technology to 
simultaneously improve learning outcomes and address the cost of 
education delivery is the most exciting development that I have seen in 
my 50-year career in higher education. The University System of 
Maryland (USM) is leading this revolution.
    We implemented course redesign projects using both the National 
Center for Academic Transformation model and Carnegie Mellon's Online 
Learning Initiative (OLI). Large, lecture-heavy, general education 
courses were changed to incorporate active learning, technology 
enhanced tutorials, fewer formal lectures, and online modules. All 
pilot projects showed improved learning at the same--or reduced--costs. 
By the end of this academic year, we will have redesigned 85 USM 
courses, enrolling more than 24,000 students.
    We are currently involved in a comprehensive study of Massive Open 
Online Courses (MOOCs). In partnership with Ithaka--recipient of a $1.4 
million Gates Foundation grant--the USM is engaged in a study exploring 
how presentation of material via a Coursera open course can be used in 
a traditional credit-bearing class. We are conducting 12 side-by-side 
comparisons and 11 case studies, with results coming next summer.
    With the Academic Transformation capacity we have built, we 
established a new Center for Innovation and Excellence in Learning and 
Teaching (CIELT). The center will assess trends, analyze results, 
research what works, and develop ``best practices'' in support of 
academic transformation in Maryland and beyond.
    I'll conclude with two final points. First, the extent to which the 
reauthorization of the Higher Education Act recognizes the impact of 
academic transformation and supports its advancement will be a key 
determinant as to its long-term success. I encourage you to make it a 
priority.
    Second, even with the USM's success, we are still very early in 
this movement. Yes, we must keep our expectations high for the 
potential that exists at the intersection of new technology and 
cognitive science, but we must do so in a thoughtful manner. We must 
insure that course transformations produce the results we want--
improved learning at the same or reduced cost--before they are adopted 
on a wholesale basis.
                                 ______
                                 
    Chairman Harkin, Ranking Member Alexander, and members of the 
committee, I am Brit Kirwan, Chancellor of the University System of 
Maryland (USM). I am pleased to join you today to discuss the potential 
offered by the various elements of what has come to be called 
``academic transformation''--the implementation of new teaching and 
learning paradigms made possible by the effective and innovative use of 
information technology.
    By way of background, the University System of Maryland comprises 
12 institutions, including research institutions, comprehensives, 
historically black institutions, one specialized research institute, 
and totally on-line university. That institution--the University of 
Maryland University College (UMUC)--is recognized as a global leader in 
interactive and online education. In fact, UMUC's expertise and 
experience were an enormous advantage as we worked to expand that 
approach across the USM. And given that the UMUC model is so well 
understood, I will focus my comments today on our residential 
institutions.
    We are, in many ways, a microcosm of public higher education and--
as such--in an enviable position to design and test the different types 
of academic transformations. In fact, over the past several years, USM 
has emerged as a national leader in the academic transformation arena.
    Before examining the implementation and impact of our efforts, I 
believe it is important to step back and consider the impetus for our 
actions as well. From my perspective, a confluence of developments 
surrounding the higher education enterprise both compel us to reexamine 
and reengineer our operations, and present us with a unique opportunity 
to embrace truly transformative change.
    First, recent years have seen the issue of college completion move 
to the forefront of our national higher education conversation, with an 
emphasis on the STEM disciplines of science, technology, engineering, 
and mathematics. The reasoning behind this was inarguable: In today's 
innovation economy, where knowledge and skill are the coin of the 
realm, education beyond high school is an imperative. Our Nation simply 
must produce more well-educated, highly skilled citizens. To secure 
America's global economic leadership, President Obama has set a 
national goal of recapturing leadership in college completion by 2020. 
The Gates, Lumina and other major foundations have made college 
completion a top priority, and are matching that rhetoric with 
substantial funding. And the National Governors Association has 
embraced college completion as its No. 1 goal. Unfortunately, just as 
the importance of college completion was being elevated in the public's 
consciousness, a systematic dis-investment in higher education--
especially public higher education--was accelerating, further 
complicating our challenge. Given that the rate of tuition increases we 
have seen in recent years is simply unsustainable, if we in higher 
education are to meet our responsibilities to the Nation, we simply 
must find a more cost-effective way of delivering high quality 
instruction and education to our students.
    Second, we are seeing advancements in technology that we have 
barely begun to exploit. The reach and speed of communications 
technology combined with the adaptability and flexibility of software 
is transformational. And for higher education, this manifests itself in 
both sophisticated online learning platforms and innovative classroom 
approaches.
    Finally, the cognitive research that has occurred over the past few 
years has dramatically increased our understanding of how people learn, 
process, and retain information. We have seen real breakthroughs in 
understating the triggers in the brain that imprint information. The 
importance of active engagement, collaboration, and social 
interaction--which has long been suspected--has been confirmed.
    And so we find ourselves at a fascinating time and place. We are 
deep into the ``new normal'' of heightened expectations and reduced 
resources--the proverbial ``do more with less'' situation. And, we are 
standing at the crossroads of advances in cognitive study and the 
exploding power of technology. The potential for the use of 
sophisticated technology to simultaneously improve learning outcomes 
and address the cost of education delivery is the most exciting 
development that I have seen in my 50-year career in higher education.
    Now, I must stress that I do not believe that technology represents 
some sort of ``magic bullet'' to fix all the ills in undergraduate 
education. I am not calling for higher education to cast aside every 
aspect of the traditional approach and start anew. That would be an 
enormous mistake.
    At the same time, we have to acknowledge that the thoughtful and 
strategic use of technology in higher education has enormous potential 
to improve outcomes while reducing costs.
    Unfortunately, right now there is a lot of hype about the use of 
technology and online education. And, there are plenty of examples of 
where institutions have bought into the assumption that technology is 
the answer without evidence that this is actually the case. My sense is 
that while we absolutely need to actively pursue innovation in teaching 
and learning using these powerful new technologies, we also need to 
insist on evidence that learning is improved and costs are moderated 
before we adopt these strategies of a wide-scale basis.
    It was precisely with this understanding and approach that the USM 
became the first university system in the Nation to take advantage of 
the capabilities of technology and innovative educational techniques to 
redesign entire courses--not just individual classes of sections.
    Our initial course redesign used the National Center for Academic 
Transformation model, drawing on the expertise of a pioneer in the 
Academic Transformation movement, Carol Twigg. Dr. Twigg studied the 
inefficiency that often plagues the multi-section, lower division, 
general education courses that exist on most campuses. She observed 
that students in these courses were essentially captive participants in 
a passive learning environment. Looking for a better approach, she ran 
a controlled experiment on 30 campuses: small liberal arts colleges, 
State flagship universities, and elite private institutions. Each 
campus had to teach sections of a course using her strategies, which 
were based on active learning, technology-enhanced tutorials, and fewer 
formal lectures. In every case--all 30 institutions--the redesigned 
Twigg sections scored higher on the finals and had a cost that was the 
same or lower than that of the traditional sections.
    The USM launched 10 pilot projects using these ``hybrid classes'' 
in which direct contact with the instructor is augmented by technology-
driven, collaborative, interactive learning, with immediate feedback to 
students. These pilot projects were implemented across several 
disciplines, underscoring the wide applicability of course redesign. 
Biology, English, Mathematics, Nursing, and other disciplines were all 
involved.
    As one example, the University of Maryland Eastern Shore (UMES)--
one of the USM's three HBIs--redesigned its ``Principles of Chemistry 
I'' course. The new approach utilized an on-demand online tutorial, 
additional technology-assisted instruction, and regularly posted 
progress reports for students. The redesign also reduced weekly classes 
from three to two, which freed instructors up for more one-on-one 
assistance. In the redesigned course, the student pass rate increased 
from just over half to almost 70 percent, and the consolidation of 
course sections cut costs substantially. As a result, all sections of 
the ``Principles of Chemistry I'' are taught using this redesigned 
model.
    Frostburg State University's ``General Psychology'' course offer 
another worthwhile example. The psychology department collapsed the 
course's 18 sections into 6, reduced in-class meetings by half, added 
computer lab time, and trained undergraduate learning assistants to 
provide tutoring. The redesigned course requires fewer faculty members 
(freeing full-time faculty to teach higher level courses), shows 
improved learning outcomes, and significantly reduces the cost-per-
student.
    A somewhat more technology-heavy approach to course redesign was 
undertaken at Carnegie Mellon University through its Open Learning 
Initiative (OLI). Drawing upon the expertise of its cognitive science 
faculty, they are developing computer-
enhanced learning modules and online tutorials--with intelligent tutors 
built into the software. Essentially, an understanding of how people 
learn is directly integrated into intelligent, technology-based 
platforms. These platforms utilize intelligent software to promote 
adaptive learning, which in turn uses analytics to gauge progress. The 
learning outcomes produced at Carnegie Mellon were similar to the Twigg 
results, both in terms of improved outcomes and controlled costs.
    Two of our institutions, The University of Maryland, Baltimore 
County (UMBC) and Towson University, were among six public universities 
in Maryland and New York that took part in an important study, using 
OLI software, funded by the academic consulting group Ithaka S+R 
Student in the introductory statistic courses on the six campuses were 
split into two groups, one taking the traditional classroom-based 
course, the other taking the OLI computer-assisted course. All the 
students took the same standardized statistics test and final exam. The 
fact that students in the hybrid course did just as well as those who 
took the conventional course was an under-reported story. It was, in 
fact, incredibly significant news. The hybrid approach allowed students 
to make more efficient use of their time, spending about 25 percent 
less time on the course--both classroom and online--for the same test 
results. In addition, as a Towson professor noted, students had come 
away with a ``deeper understanding'' of statistical concepts than seen 
in conventional courses. In fact, UMBC now teaches its first courses in 
statistics using the OLI software.
    And just as impactful as the academic results, were some of the 
ancillary results. Most notably, while just about all the professors 
that went into the study did so skeptically, by the end just about all 
of them acknowledged a much more positive outlook for the redesigned 
course. We have seen this phenomenon across our academic transformation 
efforts. Getting the first cohort of faculty to come on board was like 
pulling teeth. But in short order, these men and women went from being 
the biggest skeptics to most enthusiastic supporters of our efforts. 
They essentially seeded the ground, growing a whole new group of 
committed faculty members. Now we have far more faculty that want to 
take part in course redesigns than we can accommodate.
    So with funding from Lumina, the Carnegie Corporation, and others, 
we dramatically expanded our efforts. We have employed both the Twigg 
model and the OLI model.
    To date, the USM has supported the redesign of 37 courses, which 
enrolled more than 12,000 students during spring semester 2012 alone. 
In addition, course redesign leaders within the USM have worked closely 
with other publics, private institutions, and community colleges to 
facilitate the redesign of an additional 31 courses across the State.
    During this current academic year we are initiating the redesign of 
48 additional courses, serving more than 12,000 additional students, 
essentially doubling our efforts. Our preliminary results indicate 
exactly what we had expected, and hoped: learning outcomes, pass rates, 
and retention are improving at the same or lower costs.
    Course redesign was our first large-scale implementation of 
academic transformation principles, and our success in this work has 
led us to explore additional innovative practices and models. The USM 
is currently working with Ithaka S+R on a $1.4 million grant funded by 
the Gates Foundation. We are investigating ways that some Massive Open 
Online Courses (MOOCs)--provided by Coursera and the Open Learning 
Initiative--might be incorporated into existing university courses that 
are part of designed curricula at our institutions. While stand-alone 
MOOCs are becoming increasingly prevalent, the manner in which academic 
credit might be earned still remains to be studied. Our challenge is 
determining whether or not MOOCs, or portions of them, can be used to 
enhance learning in credit-bearing courses making higher education 
degrees more attainable.
    In our project, Ithaka and USM are conducting 12 side-by-side 
comparisons and 11 case studies at institutions across the system. Some 
sections are using the Coursera MOOCs in the so-called ``flipped 
classroom'' model, other sections are being taught in the traditional 
way. The results of this experiment will be known this coming summer.
    To further advance all our academic transformation efforts, the USM 
has created a new Center for Innovation and Excellence in Learning and 
Teaching (CIELT) that will bring together faculty and administrative 
leaders from across our 12 institutions to determine ways to improve 
the learning of students. We will assess trends and design projects to 
compare new ways to deliver courses with our current processes. By 
analyzing results and carefully collecting both quantitative and 
qualitative data on the process challenges and resource required, we 
will be able to assess costs and determine ways to make the learning 
process more efficient and cost-effective for the students, while using 
the knowledge, skills and talents of our faculty to their fullest. As a 
result of careful documentation of successes and problems, we will be 
developing information about best practices in our institutions. 
Bringing our efforts to scale and insuring sustainability are vital and 
the CIELT will play a pivotal role in accomplishing this, in Maryland 
and beyond.
    The focus on this work, combined with support from the State and 
leadership from the USM and our institutions, is creating a culture of 
innovation involving the USM, community colleges, and private and 
independent colleges and universities in Maryland. The work performed 
by the USM institutions thus far led to the State providing $13 million 
in enhancement funds. A major portion of that funding is going to 
additional investments in course redesign activities and the 
enhancement of academic innovation on the campuses.
    As I referenced earlier, an important issue we have faced in our 
efforts to bring innovation into the classroom is how to get faculty 
engaged in these innovation efforts. We realized that this could not be 
a top down mandate. We also realized that these innovations are hard 
work and require serious efforts. After all, we are asking faculty to 
think about a new paradigm for instruction. Taking these factors into 
account, we have adopted a two-pronged approach.
    First, we provide faculty with release time to devote to innovative 
course redesign and provide departments with incentive funds. We have 
set standards for what a course transformation must include: active 
learning, technology-enhanced support, and side-by-side comparisons so 
we can measure learning gains or losses and cost of delivery.
    Second, we conduct workshops and assign mentors for faculty 
entering this activity. At this point, we have a cadre of ``experts'' 
on these new teaching and learning strategies, which we designate as 
Faculty Teaching Innovation Fellows. The Fellows hold workshops and 
provide support throughout the pilot phase for faculty starting new 
projects. The results of this approach are clear: from a modest 
beginning of a dozen or so faculty executing course redesign efforts, 
we now have more than 200 faculty actively engaged in our innovation 
agenda.
    I'll conclude my remarks with two final points. First, the extent 
to which the reauthorization of the Higher Education Act recognizes the 
impact of academic transformation and supports its advancement will be 
a key determinant as to its long-term success. I encourage you to make 
it a priority.
    Second, while I am excited about the work we have done and the 
progress we have experienced within the USM, we are still early in this 
movement. Every new approach has to be studied carefully and fully 
evaluated to make sure it has the desired effect: improved learning at 
the same--or reduced--cost. Yes, I believe there is genuine potential 
in course redesign, hybrid classrooms, flipped classrooms, MOOCs and 
other elements of academic transformation. I also recognize that not 
all innovations will be successful. We must keep our expectations high 
for the potential offered by innovations and technology to 
substantially improve learning outcomes and contain costs. But we must 
do so in a thoughtful manner, insuring with evidence that course 
transformations produce the results we want before they are adopted on 
wholesale basis.
    Thank you very much for the opportunity to make this presentation.

    The Chairman. Thank you very much, Dr. Kirwan.
    Dr. Ralls, welcome. Please proceed.

    STATEMENT OF R. SCOTT RALLS, PRESIDENT, NORTH CAROLINA 
             COMMUNITY COLLEGE SYSTEM, RALEIGH, NC

    Mr. Ralls. Chairman Harkin, Ranking Member Alexander, and 
members of the committee.
    Thank you for this opportunity to be here. I want to 
acknowledge my home State Senators, Senator Burr and Senator 
Hagan, who are such great champions of our community colleges 
and our North Carolina community college students.
    Four years ago this month, North Carolina Community College 
leaders met at Fayetteville Technical Community College near 
Fort Bragg and declared student success to be the primary 
strategic focus of the North Carolina Community College System. 
And from that day forward, student success became our focus in 
strategic planning.
    It was not that we did not focus on it before, it is just 
now it changed the culture somewhat to focus on success as much 
as we had focused on access. Where we know not only how many 
students make it through our registration lines, but more 
importantly, how many cross our graduation stages.
    For 9 months in 2010, State community college leaders 
crisscrossed North Carolina, traveling nearly 14,000 miles, 
attending listening sessions at all 58 of our colleges. And 
from those, we documented 200 college-based success 
innovations, 75 barriers; and in turn, developed a 
comprehensive set of 15 statewide strategies to move the dial 
on student success in our State. All of those are documented in 
detail at our planning Web site SuccessNC.org where they are 
tracked as well. I would like to focus my time on some overall 
lessons from our 4-year experience.
    First, we see that rather than just providing general 
access to college courses, we see greater value for students in 
early connections to structured program pathways that 
accelerate them toward meaningful goals. That has meant 
redesigning our dual enrollment programs with our public school 
partners so that high school students enroll free of tuition in 
program pathways, not just random courses, ensuring they take 
the right courses to degree completion, whether it be a 
technical degree or a bachelor's degree.
    Similarly, we restructured GED programs so those students 
simultaneously receive developmental education to become 
college-ready, while also picking up valuable technical skills 
for employment.
    Second, we learned the value of identifying and mitigating 
what we call momentum loss points, points where students become 
bogged down and too often are pulled off course in the goals 
toward completion.
    At community colleges, this typically happens in the first 
semester in the first year, often in what has been referred to 
as developmental education, sometimes referred to as 
remediation courses; often the Bermuda Triangle for community 
college students where too many go in but not enough come out.
    In North Carolina, we redesigned this entire process, first 
turning to our math and English faculty experts from across the 
State to delineate and unpack the competencies required for 
college readiness, and then restructure them into more modular 
courses, saving student time and State resources. We have also 
replaced faulty predictive placement exams with a statewide 
diagnostic test that is based on those actual competencies. And 
then combined with other multiple measures, we believe that 
will lead to more accurate student placement.
    And importantly, we also work closely with our public 
schools to align their career and college testing, the new high 
school endorsements with our developmental education reforms. 
For years in our State, like in many States, we tested students 
all through high school and then they came to us, and we 
retested them using different measures, and we put two-thirds 
back into high school classes, and that just was not very 
smart. This lack of calibration of our educational measuring 
sticks cost a lot of State and student resources. So alignment 
has been a major focus for us.
    A third lesson we believe is particularly important is to 
structure programs with meaningful educational on and off 
ramps. There are multiple credentials that are of value to 
today's college student, degrees, but also industry 
certifications, certificates, badges, et cetera. And realizing 
that today, two-thirds of our college students are 
nontraditional, which means they frequently exit and then 
reenter our higher education systems. And many of the best 
programs, I think, are designed with great steps to ensure the 
students have meaningful credentials when they leave, but a 
good onramp when they return.
    This was the general theory behind one of our largest 
faculty-led curriculum designs in our 50-year history. We 
called it Code Green, borrowed from a phrase from Thomas 
Friedman that restructured 80 technical programs across 5 
different academic disciplines: transportation, energy, 
manufacturing, environment, and construction.
    Students in these redesigned programs were better able, 
through a process of stackable certification to build on 
baselines of academic workplace technical competency. They 
gained valuable third-party credentials along the way, and to 
become multi-skilled, shift back and forth in terms of multiple 
competencies, which our employers value.
    We have seen the value of a lot of these different types of 
innovations, particularly the collective engagement of faculty 
and leaders from across our State, looking at areas like 
measures, performance funding, how we shift innovations across 
different institutions. That has been sparked greatly by our 
supporters at the Bill and Melinda Gates Foundation.
    In conclusion, I would just like to say two things real 
quickly. One, I am very proud to be a part of America's 
community colleges which now serve almost half of the 
undergraduate students in the country.
    But I think our community colleges are also leaders in 
student success in rethinking these efforts. And I would submit 
as evidence our recent blueprint for the future, ``Reclaiming 
the American Dream,'' which talks about redesigning educational 
experiences, inventing institutional roles, resetting 
incentives to focus on student success.
    I believe your work in reauthorizing the Higher Education 
Act can play a major role in moving the success agenda forward. 
You can redesign financial aid in ways that encourage 
acceleration that allow for use of summer and other important 
times to move students forward. That is particularly important 
for nontraditional students.
    You can help us reinvent institutional roles by looking at 
the measures at the Federal level which really do not fit 
nontraditional students. And you can look at ways of breaking 
down silos between education and workforce programs like the 
AMERICA Works Act and other types of opportunities to bridge 
together these silos.
    All of those, I think, will make a difference both in North 
Carolina and across the United States. And I appreciate your 
leadership in taking this on.
    Thank you.
    [The prepared statement of Mr. Ralls follows:]
                  Prepared Statement of R. Scott Ralls
                                summary
    With 58 community colleges serving almost one of every eight adults 
in our State, the North Carolina Community College System is one of the 
largest and most accessible systems of higher education in the country. 
Because our statewide, comprehensive student success efforts have been 
developed and implemented by the 58 colleges across our State, our 
efforts have sometimes been referred to as ``innovation at scale''.
    Four years ago this month, our community college leaders met and 
declared student success to be the primary strategic focus for our 
System. It was not that student success had not always been a primary 
goal, but from that day forward it became the deliberate focus of our 
strategic planning, what we refer to as SuccessNC, and what is today a 
4-year effort that is producing a culture shift among North Carolina 
community colleges.
    We recognized the economic importance of ensuring more students 
attain their goals, which meant not just increasing the percentage of 
students who complete, but increasing the number of North Carolinians 
who achieve meaningful success points for employment and further 
education.
                            lessons learned
    <bullet> Rather than just providing general access to college 
courses, we see greater value for students in beginning early in 
structured program pathways that accelerate them toward meaningful 
goals.
    <bullet> With research and analysis, we have learned the value of 
identifying and mitigating momentum ``loss'' points, points where 
students become bogged down and too often are pulled off course in 
their goals toward completion.

        <bullet>  Too many students were entering developmental 
        education without exiting, leading to a complete redesign, 
        including the reengineering of curriculum and a fresh look at 
        placement tests.
        <bullet>  Working closely with our public school partners, we 
        have aligned their career and college readiness testing efforts 
        and new high school diploma endorsements with our developmental 
        education reforms.

    <bullet> Structure programs with meaningful educational on- and 
off-ramps, where the best designed programs take great steps to ensure 
students have something meaningful when they leave, and also that they 
can quickly articulate when they reenter or transition.
                          initiatives underway
    <bullet> A redesign of math courses to better prepare students with 
the competencies needed for tomorrow's work places.
    <bullet> A jointly restructured articulation agreement, aligning 
clearer, more efficient pathways to successful student degree 
attainment through seamless transfer opportunities between all North 
Carolina community colleges and public universities.
    <bullet> New measurement and analytical tools to intricately gauge 
student success.
    <bullet> The courage, on the local level, to prototype and test new 
ideas, sometimes across multiple institutions.

    With your help in reauthorizing the Higher Education Act while 
removing barriers that inhibit pathways to success, in authorizing more 
meaningful student attainment measures, and in looking for stronger 
linkages between educational and workforce programs, our community 
colleges can push our success metrics even higher.
                                 ______
                                 
    Chairman Harkin, Ranking Member Alexander and members of the 
committee, my name is Scott Ralls, and I am president of the North 
Carolina Community College System. With 58 community colleges serving 
almost one of every eight adults in our State, we are one of the 
largest and most accessible systems of higher education in the country. 
Because our statewide, comprehensive student success efforts have been 
developed and implemented by the 58 colleges across our State, our 
efforts have sometimes been referred to as ``innovation at scale''.
    Four years ago this month, North Carolina community college leaders 
met at Fayetteville Technical Community College near Fort Bragg and 
declared student success to be the primary strategic focus of the North 
Carolina Community College System. It was not that student success had 
not always been a primary goal, but from that day forward it became the 
deliberate focus of our strategic planning, what we refer to as 
SuccessNC, and what is today a 4-year effort that I believe is 
producing a culture shift among North Carolina community colleges.
    At that initial meeting, we discussed the economic importance of 
ensuring more students attain their goals, which meant not just 
increasing the percentage of students who complete, but increasing the 
number of North Carolinians who achieve meaningful success points for 
employment and further education. Our leaders noted that our goals to 
significantly increase the numbers of credential completers could not 
be accomplished with any sacrifices to access or rigor, and it also 
meant a shift in focus beyond access, where we not only take note of 
how many students make it through our registration lines, but more 
importantly, how many students cross our graduation stages.
    We decided that to discover the innovations and barriers to student 
success, it was best to listen to the experts--our faculty and staff at 
the front lines--and so for 9 months our State Board members and System 
leaders traveled nearly 14,000 miles, attending listening sessions at 
all 58 of our colleges. From those sessions, we documented more than 
200 college-based innovations and 75 barriers, and armed with that 
knowledge, as well as benchmarking from outside our State, we developed 
a comprehensive set of 15 statewide strategies to move the dial on 
student success and program completion, encompassed within a loss-
momentum framework we adopted from our great supporters, the Bill and 
Melinda Gates Foundation. This framework and these strategies, as well 
as our college-based innovations, are documented in detail at our 
strategic planning Web site, SuccessNC.org
    As we are now deep into the implementation and execution of these 
statewide strategies, I cannot today tell you their ultimate impact, 
nor will I be able to for at least a few more years, but I can tell you 
we see some positive initial signs. There is no doubt that the 
deliberate focus on student success efforts is today very different 
from what it was just 4 short years ago. Bearing that in mind, I will 
quickly share some of what I believe are our initial lessons learned.
    First, rather than just providing general access to college 
courses, we see greater value for students in beginning early in 
structured program pathways that accelerate them toward meaningful 
goals. That has meant redesigning dual enrollment programs with our 
public school partners so that high school students enroll free-of-
tuition in program pathways, not random courses, ensuring they take the 
right courses leading to degree completion, be it a technical degree or 
a bachelor's degree. Similarly, we restructured GED programs so that 
those students simultaneously receive the developmental education to 
become college-ready, while also picking up valuable technical skills 
for employment.
    Second, with research and analysis enriched by our long-time 
partners, Jobs for the Future and the Community College Research Center 
at Columbia University, we have learned the value of identifying and 
mitigating momentum ``loss'' points, points where students become 
bogged down and too often are pulled off course in their goals toward 
completion. In community colleges, this typically happens early in 
their first semester or first academic year, particularly in 
developmental education programs, often the ``Bermuda Triangle'' for 
community college students where they remediate in high-school level 
work while enrolled in college to become prepared for college courses.
    Like the Bermuda Triangle, we found too many students entering 
developmental education without exiting, which is why we have 
completely redesigned our efforts in North Carolina. First, by turning 
to expert math and English faculty across our State to reengineer our 
curriculum based on specific, well-defined competencies that both 
shorten overall course lengths while also enabling the modularization 
of courses, allowing students to quickly get the instruction they need. 
Also, rather than relying on high-stakes placement tests that we found 
were not very predictive of ultimate student success, we have 
contracted with the College Board to design a statewide test for us 
that is diagnostic of individual student math and English needs, based 
on the competencies our faculty identified, which with additional 
measures will better help us pinpoint student remedial requirements.
    We have also worked closely with our public school partners to 
align their career- and college-readiness testing efforts and new high 
school diploma endorsements with our developmental education reforms. 
For years, high schools in our State, as in most States, tested 
students for readiness using one educational standard, then students 
would graduate and come to us where we would test them using other 
educational standards, and in turn we would start approximately two-
thirds of recent graduates back in high-school level developmental 
education courses. This lack of calibration of our educational 
measuring sticks has created tremendous wastes for both students and 
State resources over time, so alignment has been a major focus of our 
developmental education reforms.
    As a third lesson, we believe it is particularly important to 
structure programs with meaningful educational on- and off-ramps. There 
are multiple credentials of value for today's college student--degrees, 
industry certifications, certificates, badges, etc.,--and realizing 
that two-thirds of todays' college students are non-traditional also 
means they frequently exit and later re-enter our higher education 
systems. I believe many of the best designed programs take great steps 
to ensure students have something meaningful when they leave, and also 
that they can quickly articulate when they reenter or transition.
    This was the general theory behind one of the largest faculty-led 
curriculum redesigns in our system's history, completed last year, what 
we call ``Code Green,'' borrowed from a terminology coined by Thomas 
Friedman. This effort restructured 80 technical programs across five 
different academic disciplines--transportation, energy, manufacturing, 
environment and construction--to better enable the concept of stackable 
certification.
    Based on a competency framework championed by the National 
Association of Manufacturers' Manufacturing Institute, students in our 
redesigned programs are better able to attain meaningful industry 
certifications as well as traditional academic credentials, built on 
top of a foundational core of academic, workplace, and technical 
competencies. Embedded in these programs are skills emphases on energy 
efficiency and conservation, which we believe will be increasingly 
important for the technical jobs of the future. Very importantly, our 
technician programs were designed through the leadership and input of 
industry and hundreds of faculty from across our State, faculty who 
ultimately changed the programs they were accustomed to teaching for 
the purpose of providing greater academic efficiency and enhanced 
employment certification advantages for students. Along the way, many 
gained new industry-recognized certifications as well so as to be 
better enable them to educate students to these important credentials.
    This year, we have two big redesign ``lifts,'' if you will. First, 
community college faculty from across the State are redesigning all of 
our math courses to better prepare our students with the math 
competencies needed for tomorrow's work places. Second, together with 
curriculum faculty teams from the great 16-campus University of North 
Carolina System, our faculty and academic leaders have jointly 
restructured a proposed new articulation agreement with the University 
of North Carolina System, which we anticipate to be signed by both our 
boards in February, again aligning clearer, more efficient pathways to 
successful student degree attainment through seamless transfer 
opportunities between all community colleges and public universities in 
our State.
    Finally, we have seen in our State that beyond any specific program 
structures, perhaps the real secret sauce to student success is in the 
collective effort of talented faculty, staff and college leaders to 
deliberately focus and calibrate their local attempts to move the dial 
on program completion. This requires collective awareness to previously 
overlooked student success challenges and opportunities, and through 
multiple outlets today in North Carolina, college presidents, trustees, 
and faculty and staff leadership teams together learn about ideas for 
improving student success goals. It also requires new measurement and 
analytical tools to intricately gauge student success, and through the 
assistance of a great corporate partner in our State, SAS Institute, we 
are developing some of the best advanced analytic resources in our 
sector. And it also requires having the local courage to prototype and 
test new ideas, sometimes across multiple institutions, which I believe 
is one of the major benefits of our being one of three participating 
States in the Completion by Design initiative funded by the Bill and 
Melinda Gates Foundation.
    In conclusion, I would like to say that I am extremely proud to be 
part of America's community colleges, a crucial piece of America's 
education fabric beyond just our growing scale and size. Our over 1,200 
colleges that educate nearly half of American undergraduate students, I 
believe, are also leaders in rethinking student success and degree 
completion in the United States. And I would submit as evidence, 
Reclaiming the American Dream, a report of the recommendations by the 
American Association of Community Colleges' 21st Century Commission on 
the Future of Community Colleges. Boldly calling for a new vision for 
community colleges that extends our traditional ``access'' mission to 
an ``access plus success'' mission, this blueprint for our future 
challenges us to focus on three R's--redesigning students' educational 
experiences, reinventing institutional roles, and resetting the system 
to create incentives for student and institutional success.
    Your work in reauthorizing the Higher Education Act can play a 
major role in moving the national success agenda forward. You can help 
us remove barriers that sometimes inhibit the redesign of educational 
experiences by providing opportunities for accelerating Pell grant 
opportunities for student completion, such as providing funding during 
the summer and also increasing flexibility for Pell grants for 
institutions offering innovative program structures such as modularized 
developmental education. Our experiences also teach us the value of 
cost-benefiting regulatory requirements that become what we referred to 
as ``ankle biters'' at the institutional level, distracting from the 
mission of student success without adding additional accountability. 
New gainful employment requirements are an example at the national 
level of what could be an ankle biter distraction from the ultimate 
goal.
    You can also help reinvent institutional roles by authorizing more 
meaningful measures for determining student goal attainment. Current 
Federal IPEDS (Integrated Postsecondary Education Data System) measures 
are increasingly irrelevant for the growing non-traditional college 
population and, for example, were applicable to only one-third of the 
student population at our North Carolina community colleges last year. 
They treat as non-completers students who successfully transfer to 4-
year colleges, or who complete industry certifications and find 
employment, before attaining a traditional academic degree. In 
addition, many students, particularly working students, simply need 
more than 150 percent of the ``normal time'' to complete their 
programs. Reinventing institutional roles will depend greatly on the 
appropriateness of the metrics we use to define student success.
    Finally, you can reset the system to create incentives for student 
and institutional success. Breaking down traditional silos, we have 
learned, can pay dividends in this regard. I would encourage you to 
continue to look for linkages between what have traditionally been 
workforce and educational programs. Examples include cross-departmental 
efforts between Labor and Education in the community college TAACCCT 
(Trade Adjustment Assistance Community College and Career Training) 
Grant Program and efforts to incentivize industry-recognized 
credentials as Senator Hagen has proposed through the AMERICA Works 
Act. We urge extension of the TAACCCT.
    Thank you for this opportunity to appear before you today to 
discuss some of the lessons learned during our 4-year journey into 
improving student success. I also want to thank Senators Burr and Hagan 
who have both been tremendous champions of community colleges and 
student success in our State. Collectively, with each of your help in 
reauthorizing the Higher Education Act while removing barriers that 
inhibit pathways to success, in authorizing more meaningful student 
attainment measures, and in looking for stronger linkages between 
educational and workforce programs, I am confident we can push post-
secondary student success to a much higher level. Thank you for your 
leadership and your support of our students.

    The Chairman. Thank you very much, Dr. Ralls.
    And Mr. Hall, again, welcome. Please proceed.

  STATEMENT OF TIMOTHY L. HALL, PRESIDENT, AUSTIN PEAY STATE 
                  UNIVERSITY, CLARKSVILLE, TN

    Mr. Hall. Chairman Harkin, Ranking Member Alexander, and 
members of the committee.
    I have the privilege of serving as president of Austin Peay 
State University in Clarksville, TN; not Texas, but Tennessee 
where Austin Peay is. Tennessee's fastest growing public 
university and one which serves many students at risk for not 
completing college.
    More than 50 percent of our students receive the Pell grant 
and roughly 40 percent are adults. Both categories of students 
have traditionally experienced retention and graduation rates 
significantly lower than other students.
    At Austin Peay, we are working overtime to defeat 
demography on behalf of our students. We know that we cannot 
replace their motivation or their efforts, but we have 
discovered there are things we can do to support their success.
    My goal today is to summarize two of the innovations that 
have helped more of our students persist and graduate. I should 
tell you that I am happy to serve a campus full of faculty and 
staff who are discontented. In Thomas Edison's terms, he said, 
``Discontent is the first necessity of progress. Show me a 
truly satisfied man, and I will show you a failure.'' So we are 
happy to be discontent with current results at Austin Peay 
looking for ways to help more of our students succeed.
    The first innovation I want to talk with you about is in 
the area of developmental education. One of our most pressing 
challenges is how to help students who arrive at college not 
ready for college work. More than 50 percent of our students 
fall into this category.
    Traditionally, such students have been required to take 
noncredit courses designed to get them up to speed for college 
level work as a prerequisite to taking required credit-bearing 
courses. Students not ready for college math, for example, 
would be required to take one or more noncredit math courses to 
catch them up and then whatever college level math courses they 
needed to graduate.
    The success rate for that prerequisite model was abysmal. 
Only about 10 percent of our students made it through the 
noncredit courses and then successfully completed the college 
level course. Those results were paralleled by success rates 
around the country.
    Beginning in 2007, Austin Peay replaced the traditional 
model with a co-curricular approach. Now, students with 
academic deficiencies move straight into college credit bearing 
courses, with additional required workshops to help them 
succeed. We use talented student peer mentors to lead these 
workshops. In mathematics, for example, these workshops include 
individual diagnostics to pinpoint problem areas for each 
student and computer exercises to help address their particular 
problems.
    The results of the new model have been astonishing. Now, 
better than 70 percent of our students who arrive unprepared 
for college mathematics, for example, are able to successfully 
complete the introductory mathematics course for their 
discipline and to do so within a single semester.
    Results for students with other deficiencies have been 
comparable. And instead of paying for two or more courses and 
receiving credit for only one, students pay only for the single 
credit-bearing course with a modest $75 additional fee to cover 
the cost of the supplemental workshops.
    These successes have caused the National Center for 
Academic Transformation to include Austin Peay's co-curricular 
model as one of six recommended models for redesigning 
developmental courses. Similarly, Complete College America has 
featured Austin Peay's co-curricular design among its 
recommended strategies for meeting the needs of students who 
arrive at college unprepared for college level work.
    At Austin Peay, we have also harnessed the power of 
technology to guide students on the path to a successful 
degree. Our revolutionary program, Degree Compass, created by 
Dr. Tristan Denley and now licensed to Desire to Learn is a 
personalized, Web-based, course-recommendation tool that uses 
predictive analytics to guide students' course selection in a 
way that not only enhances their rate of academic success, but 
also the timely completion of their degree.
    Spotlighted by publications such as ``The New York Times'' 
and the ``Wall Street Journal,'' and recognized by President 
Obama, and by Bill Gates, Degree Compass is making a difference 
in success rates for students, not only at Austin Peay, but at 
other universities and community colleges that have made it 
available to their students.
    Across multiple institutions, we are seeing the average 
credit hours earned by students increase in correlation to the 
extent that they take courses recommended by Degree Compass. 
Furthermore, the achievement gap that tends to exist between 
low-income or minority students and other students is being 
dramatically narrowed where students build schedules using the 
courses recommended by Degree Compass.
    The results of the innovations I have described at Austin 
Peay have been dramatic. State funding for higher education in 
Tennessee is now based almost 100 percent on intuitional 
performance, especially as measured by the retention and 
graduation of our students. I am pleased to tell you that for 
the first 2 years of this new funding model, Austin Peay State 
University has led the State in increased performance and 
funding. We have also seen our 6-year graduation rate increase 
by 25 percent over the past 6 years.
    In closing, I thank you for the opportunity to address the 
important subject of innovation in higher education. Now more 
than ever, we know that innovation in service of student 
success is necessary to achieve the degree completion results 
America needs over the next decade. The results we have seen at 
Austin Peay demonstrate that innovation to support student 
success is within our grasp.
    Thank you.
    [The prepared statement of Mr. Hall follows:]
                 Prepared Statement of Timothy L. Hall
                                summary
    Tim Hall is president of an institution with more than 10,000 
students, many of whom are low-income and adult students. He will 
discuss two innovations that have helped his institution see graduation 
rate improvements of roughly 25 percent over the past 6 years. The 
first innovation is in the area of developmental education. Like many 
institutions, Austin Peay serves many students who are not prepared to 
do college-level work when they matriculate. Traditionally, such 
students have been required to take non-credit courses designed to 
catch them up before they were permitted to enroll in required, credit-
bearing courses. Unfortunately, the success rate of this approach was 
abysmal. Austin Peay has developed an alternate strategy which puts 
students straight into credit-bearing courses and provides them 
required workshops to support their success. The results have been a 
remarkable improvement: from a 10 percent overall success rate under 
the old model to a success rate of more than 70 percent under the new 
model.
    President Hall will also discuss a revolutionary program called 
Degree Compass developed by Dr. Tristan Denley at Austin Peay. Degree 
Compass uses predictive analytics to accurately predict the success of 
students in particular courses and thus give students and faculty 
important information to plan their progress toward degree. Use of this 
program at multiple institutions has been closely correlated with 
significant increases in earned credit hours and narrowing of the 
achievement gap between low-income or minority students and other 
students.
                                 ______
                                 
    Chairman Harkin, Ranking Member Alexander, and members of the 
committee, my name is Tim Hall. I am the president of Austin Peay State 
University in Clarksville, TN, Tennessee's fastest growing public 
university and one which serves many students at risk for not 
completing college. More than 50 percent of our students receive the 
Pell grant, and roughly 40 percent are adults. As you know, both 
categories of students have traditionally experienced retention and 
graduation rates significantly lower than other students. At Austin 
Peay, we are working overtime to defeat demography on behalf of our 
students. We know that we can't replace their motivation and efforts, 
but we've discovered that there are things we can do to support their 
success. My goal today is to summarize two of the innovations that have 
helped more of our students persist and graduate.
    The first is in the area of developmental education. Like many 
institutions of higher learning, one of our most pressing challenges is 
how to help students who arrive at college not ready for college work. 
More than 50 percent of our students fall into this category. 
Traditionally, such students have been required to take--and required 
to pay for--noncredit courses designed to get them up to speed for 
college-level work as a prerequisite to taking required credit-bearing 
courses. Students not ready for college math, for example, would be 
required to take one or more noncredit math courses to catch them up, 
and then whatever college-level math course they needed to graduate. 
The success rate for that prerequisite model was abysmal. Only about 10 
percent of our students made it through the noncredit courses and then 
successfully completed the college-level course. Those results 
paralleled success rates around the country.
    Looking back, we can see why the prerequisite model was not likely 
to produce the results we needed. It was expensive, for us and for our 
students. It was demoralizing for our students--many of them the first 
in their families to attend college--to arrive on campus and be told 
they weren't ready to take on real college courses. And it was risky, 
because it tended to extend the time it took our students to move 
forward toward graduation; and, as we now know, time is the enemy, 
especially for our low-income and adult students.\1\ The longer it 
takes for them to graduate, the more likely it is that life will 
intervene and throw them off track.
---------------------------------------------------------------------------
    \1\ See http://www.completecollege.org/docs/Time_Is_the_Enemy.pdf.
---------------------------------------------------------------------------
    Beginning in 2007, Austin Peay replaced the traditional 
developmental studies model with a co-curricular model. Now, students 
with deficiencies in mathematics, writing, or reading move straight 
into credit-bearing college courses, with additional required workshops 
to help them succeed. We use talented students to lead these workshops. 
In mathematics, for example, the workshops include individual 
diagnostics to pinpoint problem areas for each individual student and 
computer exercises to help address these problems. The results of the 
new model have been astonishing. Now, better than 70 percent of our 
students who arrive unprepared for college mathematics, for example, 
are able to successfully complete the introductory mathematics course 
for their discipline, and do so within a single semester. Results for 
students with deficiencies in reading or writing ability have been 
comparable. And instead of paying for two or more courses and receiving 
credit for only one, students pay for a single course, with a modest 
$75 additional fee to cover the cost of the supplemental workshops. 
These successes have caused the National Center for Academic 
Transformation (NCAT) to include Austin Peay's developmental course 
model as one of the six recommended models for redesigning 
developmental courses.\2\ Similarly, Complete College America has 
featured Austin Peay's co-curricular redesign of developmental studies 
as one of the recommended strategies for meeting the needs of students 
who arrive at college unprepared for college-level work.\3\
---------------------------------------------------------------------------
    \2\ For NCAT's report on Austin Peay's redesign, see http://
www.thencat.org/States/TN/
Abstracts/APSU%20Algebra_Abstract.htm.
    \3\ See http://www.completecollege.org/docs/CCA%20Co-
Req%20Model%20_%20Transform%
20Remediation%20for%20Chicago%20final%281%29.pdf.
---------------------------------------------------------------------------
    At Austin Peay we have also harnessed the power of technology to 
guide students on the path to a successful degree. Our revolutionary 
program, Degree compass, created by Dr. Tristan Denley and now licensed 
to Desire2Learn,\4\ is a personalized, web-based course recommendation 
tool that uses predictive analytics to guide students' course selection 
in a way that not only enhances their rate of academic success but also 
the timely completion of their degree. Degree Compass compares each 
student's academic record with every other student's record to make 
remarkably accurate predictions about a student's likelihood of success 
in a particular course or a particular major. It then makes real-time 
recommendations available to both our students and their faculty 
advisors. Spotlighted by the publications such as the New York Times, 
the Wall Street Journal, USA Today, and The Chronicle of Higher 
Education, and recognized by President Obama \5\ and Bill Gates,\6\ 
Degree Compass is making a difference in the success rates for students 
not only at Austin Peay State University, but at other universities and 
community colleges that have made it available to their students. 
Across multiple institutions, we are seeing the average credit hours 
earned by students increase in correlation to the extent they take 
courses recommended by Degree Compass. Furthermore, the achievement gap 
that tends to exist between low-income or minority students and other 
students is being dramatically narrowed where students build schedules 
using the courses recommended by Degree Compass.
---------------------------------------------------------------------------
    \4\ See http://www.desire2learn.com/products/degree-compass/.
    \5\ See http://www.whitehouse.gov/the-press-office/2013/08/22/fact-
sheet-president-s-plan-make-college-more-affordable-better-bargain-.
    \6\ See http://www.c-spanvideo.org/program/GatesonP.
---------------------------------------------------------------------------
    The result of the innovations I've described at Austin Peay have 
been dramatic. You may know that State funding for higher education in 
Tennessee is now based 100 percent on institutional performance, 
especially as measured by the retention and graduation of our students. 
I am pleased to tell you that for the first 2 years of this new funding 
model, Austin Peay State University has led the State in increased 
performance and funding. We have also seen our 6-year graduation rate 
increase by 25 percent over the past 6 years.
    In closing, I thank you for the opportunity to address the 
important subject of innovation in higher education. Now, more than 
ever, we know that innovation in service of student success is 
necessary to achieve the degree-completion results America needs over 
the next decade. The results we have seen at Austin Peay State 
University demonstrate that innovation to support student success is 
within our grasp. Thank you.

    The Chairman. Thank you very much, Mr. Hall.
    Now, Dr. LeBlanc, welcome. Please proceed.

STATEMENT OF PAUL J. LEBLANC, PRESIDENT, SOUTHERN NEW HAMPSHIRE 
                   UNIVERSITY, MANCHESTER, NH

    Mr. LeBlanc. Thank you, Senators, for the opportunity to 
appear before you.
    As you know, Southern New Hampshire University made a 
little bit of education history back in April when the 
Department of Education approved our modestly named College for 
America degree program under the direct assessment of student 
learning provisions under title IV. So for the first time ever, 
Federal financial aid dollars will be paid for actual 
documented learning rather than seat time.
    CFA, as we call it for short, is the first of a new breed 
of competency-based education programs that are untethered to 
the credit hour. If you think about it, the credit hour still 
functions like the Higgs-Boson particle of higher education. It 
serves a series of function for which it was never designed. It 
was designed more than 100 years ago to figure out how to pay 
pensions to faculty members. But if you think about it, it now 
defines and unitizes how we think about knowledge. It defines 
degree programs. It defines faculty workload. It defines how we 
allocate our resources, our physical resources. It permeates 
higher education in a way that was never part of the plan. It 
is also the basis for giving out $150 billion of Federal 
financial aid, the powerful oxygen that keeps our industry 
alive in many ways.
    It is very good at telling us how long they have sat, but 
it is not very good at telling us what they have learned. The 
average employer who looks at a transcript and sees a ``B'' in 
Intro to Sociology does not know much more than somebody is 
better than somebody else with a B-minus or a C-plus. They can 
infer some things from the course title, but that is about it.
    Programs like College for America make learning fixed and 
allow time to be negotiable, and this is a fundamental flipping 
of the credit-hour construct.
    We focus on outcomes and not inputs, and that allows for 
new delivery models when well designed can lower cost, improve 
quality, and graduate more Americans with better skills. In our 
case, College for America costs $1,250 every 6 months. Our 
first graduate went from zero credits to an associate's degree 
in under 100 days. We have another 20 who have done it in under 
9 months. Not because, well they are in some ways 
extraordinary, but because they are working adults who knew a 
lot. A person who has worked for 20 years in a family business 
as a bookkeeper probably knows college math. Why would we think 
that making them sit through 15 weeks of a term would improve 
their learning?
    On the other hand, why would we penalize somebody who needs 
a year and a half to learn how to write well? The thing that is 
negotiable for us is the time. What is not negotiable for us is 
the learning and the claims we make for our students.
    We work closely with large scale employers such as ConAgra 
Foods, Anthem Blue Cross/Blue Shield, Partners Health, 
Cumberland Gulf, the city of Memphis, and more. Our 
competencies are closely aligned with their needs and we use 
cutting edge labor research tools to develop our programs.
    But they will tell you there is a crisis of confidence 
among employers who find themselves as graduates of 4-year 
degree programs who do not write very well. We now ask the 
question to CEO's and HR directors and say,

          ``Raise your hand if you have somebody working for 
        you who struggles with basic math to navigate a budget, 
        to work on a spreadsheet.''

    More than half the hands in the room go up.

          ``Raise your hands if you have somebody working for 
        you that does not write very well who you hesitate to 
        put in front of a group of customers or clients.''

    More than half the hands go up.
    Our approach to education is through competency because 
that is how they think about their needs. To declare the claims 
we make for the learning is to stand behind them in a way that, 
I think, is not typical.
    CBE programs, Competency Based Education programs, have the 
potential to drive a paradigm shift in higher education, but we 
need to know a lot more in order to inform the kind of 
policymaking in which you are engaged.
    This is a new movement in some ways with more questions 
than answers. So I applaud the committee for its focus on 
innovation and for seeking ways to develop new, more 
sustainable business models for higher education.
    I think a word needs to be said about what kinds of 
innovation you seek to support. A lot of what we see in higher 
education is sustaining innovation, genuine improvements in 
quality, genuine improvements in persistence in graduation 
rates, but not game changers.
    If the game you are trying to change has to do with 
sustainability and access and cost. For that sort of innovative 
change, you need to look at business models and new ways to 
think about our delivery, and this is where we harness both the 
technology, which has been described, but also the unbundling 
of higher education which is underway and makes all sorts of 
new models possible.
    The Federal Government can support CBE programs in the 
following ways. You can support experimental sites that allow 
for nontime-based models of aid disbursement that align with 
nontime-based models of educational delivery.
    While direct assessment allows for an alternative to time, 
all of the supporting, existing regulatory guidelines remain 
tethered to the credit hour. You had the foresight to pass 
legislation allowing experimentation, but we now need to use it 
and to ensure that the underlying regulations do not squelch 
the innovation the legislation sought to encourage.
    I would suggest that you need to support new accreditation 
pathways that develop principles of good practices and CBE's; 
either as an option within existing regional accreditors or 
through a new body.
    Support development of agreed-upon definitions of 
competency. If competencies that are placed are being 
alternative to the credit hour as the currency of higher 
education, we need a much better exchange rate than the one 
that has to be doubled the credit hour and produce so much 
inefficiency and waste.
    The Government should create safe spaces for institutional 
innovation and learn from other experiments and ways that can 
eventually inform policy, foster the development of more CBE 
programs that provide high quality, low prices, and lift the 
quality of the traditional time-based programs that will 
dominate higher education for the foreseeable future.
    In return, you should demand more from us as an industry. 
We should provide greater transparency and data than we have 
been willing to share. You should hold us accountable for the 
outcomes we produce, on how we know the degree to which we 
prepare students for the world of work, for the degree that we 
provide access and support for students in need.
    Thank you.
    [The prepared statement of Mr. LeBlanc follows:]
                 Prepared Statement of Paul J. LeBlanc
                                summary
    Southern New Hampshire University (SNHU) made higher education 
history in April 2013 when the Department of Education approved of 
SNHU's College for America (CfA) degree program under ``direct 
assessment of student learning'' provisions under title IV. For the 
first time ever, Federal financial aid dollars will be paid for 
learning rather than time. CfA is the first of a new breed of 
competency-based education (CBE) programs that are untethered to the 
credit hour. The credit hour permeates higher education and while it is 
good for telling us how long students sat, it is not very good at 
telling us what they learned. Programs like CfA make learning fixed and 
non-negotiable and allow time to be flexible.
    Focusing on outcomes and not inputs allows for new delivery models 
that, when well designed, can lower cost, improve quality, and graduate 
more Americans with better skills. CfA cost only $1,250 every 6 months 
and our first graduate went from zero credits to an Associates Degree 
in under 100 days. Many others have completed their degrees in under 9 
months. We work closely with large scale employers such as ConAgra 
Foods, Anthem Blue Cross/Blue Shield, Partners Health, Cumberland Gulf, 
the city of Memphis, and more. Our competencies are closely aligned 
with their needs and we use cutting edge labor market research tools to 
develop our programs.
    CBE programs may drive a paradigm shift in higher education, but we 
need to know a lot more in order to inform policy. This is a new 
movement with more questions than answers. The Federal Government can 
support CBE in the following ways:

    <bullet> Supporting experimental sites that allow for non-time-
based models of aid disbursement that align with non-time-based models 
of educational delivery. While direct assessment allows for an 
alternative to time, all of the supporting regulatory guidelines remain 
tethered to the credit hour.
    <bullet> Support new accreditation pathways that develop principles 
of good practice in CBE, either through the existing regional 
accreditors or through a new body.
    <bullet> Support development of agreed upon definitions of 
competencies. If competencies are to replace the credit hour as the 
currency of higher education, we need a much better exchange rate than 
the one that has bedeviled the credit hour and produced so much 
inefficiency and waste.

    The government should create ``safe'' spaces for institutional 
innovation and learn from those experiments in ways that can eventually 
inform policy, foster the development of more CBE programs that provide 
high quality/low prices, and lift the quality of traditional time-based 
programs that will dominant higher education for the foreseeable 
future.
                                 ______
                                 
    I appreciate the opportunity to offer testimony to the Committee on 
Health, Education, Labor, and Pensions (HELP) and to share the 
innovation work that Southern NH University (SNHU) is doing on behalf 
of students. SNHU is a private non-profit university of over 30,000 
students with a traditional campus in Manchester, NH, a large online 
presence (now the third or fourth largest non-profit provider of online 
degrees in the country), and a new ground-breaking competency-based 
education (CBE) degree program. This last, dubbed College for America, 
was in April 2013 the first CBE degree program to be approved under the 
``direct assessment'' provisions of the Higher Education Act, allowing 
the disbursement of Federal financial aid for actual learning outcomes 
rather than the accumulation of time-based credit hours.
    SNHU is widely known for its innovative work in providing to 
students multiple degree pathways that improve quality and lower cost. 
These include:

    <bullet> A competency-based 3-year bachelors program created 15 
years ago (with FIPSE support) that cuts the cost of a degree by 25 
percent;
    <bullet> The SNHU Advantage Program, with a flat $10,000 per year 
cost for the first 2 years program that saves 35 percent of the cost of 
our regular degree program;
    <bullet> Our growing online programs (which offer a 4-year degree 
for under $40,000);
    <bullet> And now College for America (CfA), which provides fully 
self-paced competency-based Associates Degree for as little as $1,250.

    For that work, SNHU was listed at #12 in Fast Company magazine's 
``The World's 50 Most Innovative Companies List'' in 2012, the only 
university to be included. The university was recently awarded a $1.8 
foundation grant to convene 20 other institutions working on developing 
their own competency-based degree programs in an effort to move along 
the development of new CBE models and develop principles of best 
practice.
                     why college for america (cfa)?
    We began work on CfA 2 years ago as a response to a perfect storm 
in higher education: a crisis of cost and access; a crisis of 
confidence in the quality of today's college graduates; and the need to 
educate many more Americans. Our observation was that traditional 
higher education was built around inputs that made everyone feel good, 
but that often drove up the cost of education with questionable value 
added. So much of traditional higher education is based on prescription 
or inputs, items that have long been valued and presumed to be tied to 
quality. These include:

    <bullet> How many books in the library;
    <bullet> How many PhD's on the faculty;
    <bullet> The average SAT scores and high school GPA's of the 
entering classes;
    <bullet> The pedigrees of the faculty and what they have published; 
and
    <bullet> The grandeur of its buildings, and more.

    The assumption was that if all these items were well addressed, 
students necessarily received a good education. The actual outcomes of 
that education were often ill-defined outside of high stakes fields 
like Nursing, Engineering, and Accounting (where third party validation 
often shaped outcomes and then validated student mastery). Traditional 
higher education has generally been hazy on defining and assessing the 
learning outcomes of its degree programs, and for a very long time 
society trusted a degree to be a reliable signal of largely assumed 
outcomes: the ability to communicate, solve problems, to do 
quantitative reasoning, and to have a certain level of professional 
maturity. This is no longer the case.
    A much discussed 2011 book, Academically Adrift, questioned how 
much actual value-added learning was taking place on American campuses 
and touched a national nerve. From inside the higher education 
industry, it echoed an increasing complaint from employers that new 
college graduates were arriving in the workplace with gaps in basic 
skills, whether the ability to communicate well or do basic math or 
work in teams. It expands on oft repeated worries about rampant grade 
inflation and the ``cheapening'' of the degree. Polls reveal findings 
like ``less than 10 percent of employers thought colleges did an 
``excellent'' job of preparing students for work.'' (http://
chronicle.com/article/Employers-Say-College/130013/) and in a more 
recent poll only a third of employers gave higher education fair marks 
for preparing students with basic workplace skills (http://
chronicle.com/article/The-Employment-Mismatch/137625/#id=overview). 
Critics worry that at the very same time we see skyrocketing costs and 
increased student debt, we may be getting less for our national and 
personal investments.
    While outcomes-based education is in part a response to the need to 
provide better evidence of the claims we make for student learning, it 
has also provided a way of thinking about alternative paths to earning 
college credits and a degree. The Council of Adult and Experiential 
Learning (CAEL) has long championed Prior Learning Assessments, a 
portfolio approach allowing adult learners to earn credit for what they 
have learned outside the classroom. Excelsior University, Charter Oaks 
State University, and Western Governor's University have long allowed 
students accelerated options for demonstrating their completion of 
outcomes. And with our earlier mentioned approval for direct 
assessment, Southern New Hampshire University made history. For the 
first time, Federal financial aid dollars now pay for completed 
competencies instead of three-credit courses. Put another way, 
education attainment can now be untethered to time and this has 
profound implications.
    The Carnegie Unit, or three-credit-hour course, has been the Higgs-
boson particle of higher education. While originally meant to provide a 
basis for awarding pensions to retired faculty members, it has come to 
insinuate itself into every facet of higher education. It is how we 
unitize knowledge, at least as students come to know it and faculty 
come to share it. It is how we apportion workload. It is the building 
block of curricula and programs. It shapes resource and room 
allocation. And it is the basis for awarding tens of billions of 
dollars of Federal financial aid, the monetary fuel that sustains the 
industry. The problem is that the Carnegie Unit has allowed us to be 
very good at reporting how long students sit at their desks, but not 
very good about demonstrating what they actually learned. The typical 
transcript is a black box and while seeing that Sally Smith had a ``B'' 
in Sociology is helpful for knowing that she outperformed someone with 
a ``B-'' or ``C+,'' it sheds no light on what Sally actually knows and 
can do from taking that class. CBE reverses the time/learning 
relationship and makes very clear what students know and can do and 
cares far less about the time it took to get them there. The very first 
graduate of SNHU's College for America (CfA) program went from 
enrollment to an Associate's Degree in just 3 months. The physics of 
education have changed.
    We have targeted CfA at the lowest 10 percent of wage earners in 
large companies, adults who have zero to few college credits and who 
need a degree to improve their skills, retain a grip on their 
employment, seek better employment, and move up the job ladder within 
their organizations. We work with large scale employers like ConAgra 
Foods, McDonalds, Panera Bread, Partners Health, the city of Memphis, 
Anthem Blue Cross/Blue Shield, and others. Many of these employees are 
making minimum wage, often not making family sustaining wages. For 
many, the cost of college, even community college, is prohibitive at a 
time when approximately 70 percent of new jobs will require a 2-year 
degree or its equivalent. From the employer side, our partners describe 
challenges in finding workers with basic foundational skills of 
communication and quantitative problem-solving, soft skills like the 
ability to work in teams, and job specific skills such as the use of 
basic office technologies. They routinely report hiring 4-year college 
graduates who lack these skills.
    We set out to create CfA with these goals in mind:

    <bullet> Assure quality: be clear in the claims we make for our 
learning and stand behind them with rock-solid assessment;
    <bullet> Remove cost as a barrier to education; and
    <bullet> Help the most marginalized learners get a degree.

    By flipping the credit hour construct so that learning is well-
defined and fixed while time is flexible, we were able to fundamentally 
re-imagine the degree program. If someone works as a bookkeeper in a 
small company and has strong math skills, why not let him or her 
immediately demonstrate mastery of the math competencies and move on? 
No need to make that person sit through classes for 15 weeks. However, 
if someone really struggles with writing and needs 18 months to 
demonstrate mastery, why would we think 15 weeks of First Year Writing 
would get the job done? Or that giving that person a C^ in writing is 
acceptable to employers?
    Instead of courses or credit hours, our degree program has 120 
competencies in nine families, 120 ``can-do'' statements that are 
demonstrable and measurable. Each competency is defined by a rubric 
that is later used for assessing mastery--there is no mystery to 
student, faculty member, or employer. The skill areas are:

    <bullet> Foundational Skills

        <bullet>  Communication
        <bullet>  Skills
        <bullet>  Critical and Creative Thinking
        <bullet>  Quantitative Skills
        <bullet>  Digital Fluency and Information Literacy

    <bullet> Personal and Social Skills

        <bullet>  Personal Effectiveness
        <bullet>  Ethics and Social Responsibility
        <bullet>  Teamwork and Collaboration

    <bullet> Content Knowledge

        <bullet>  Elective
        <bullet>  (Business Essentials)

    We use cutting edge labor market tools and the best research we can 
find to construct the actual competencies. We work closely with our 
employee partners to map competencies and ensure that they are the 
right ones for the right jobs.
    We designed the program to be online, self-paced, and offered in 
ways that work for students whose lives are consumed by family and work 
and then an education. We leverage the social capital in these 
students' lives, working to identify mentors and people who can help 
them learn, and use a powerful peer-to-peer platform to encourage them 
to help each other. We use open-education resources (OCR) to drive out 
costs wherever we can. When students graduate, they receive a 
competency transcript (and can request a traditional one as well) that 
precisely outlines the 120 competencies they have mastered. Evidence of 
that mastery resides in a web-based portfolio that can be used by the 
student to share with employers.
    In short, we took many of the ``givens'' in higher education 
delivery and reversed them:

 
 
 
 
      Time Fixed, Learning Undefined        Time Variable, Learning
                                             Defined
      Faculty Centered                      Student Centered
      Expert Teaching Model                 Mentor Model
      High Cost/Price                       Drive costs out of model
      Transcript Black Box                  Proof of Learning
      ``Big Chunk'' Courses                 Granular Competencies
      Learners come to institution          Learning comes to students


    We think the movement to competency-based education has profound 
implications for improving higher education, though it will be painful 
for many institutions. CBE requires a level of clarity and definition 
in learning outcomes that many IHEs resist. It requires building 
learning around individual students and where there strengths and 
weaknesses lie, not making students conform to rigid institutional 
structures. It requires actual demonstrated mastery, so students can no 
longer slide by with mediocre grades and receive a degree at the end. 
The danger here is that CBE may also for a while decrease college 
completion rates as we no longer make compromises on the quality of 
degrees.
    How is it going? It is too early to tell as we only launched last 
January. We do know the following:

    <bullet> The program does allow accelerated learning: our first 
graduate went from zero credits to an Associates Degree in under 100 
days and we have another 20 who have completed in under 9 months.
    <bullet> We can drive considerable cost out of the equation and 
make the program affordable. At $2,500 per year and with access to Pell 
grants for our neediest of students and employer reimbursement for 
many, we have largely removed cost as a barrier to an education.
    <bullet> Access to technology remains an issue for some. Not 
technology per se, but up-to-date adequate computing. We are piloting 
the use of Chromebooks, the $200 computers, and those are working well.
    <bullet> Psychologically, students love that the inverse of mastery 
is not ``failure,'' but ``not yet.'' Our model does not punish students 
with failure, just as it does not reward mediocrity.
    <bullet> Employers love our focus on competencies.
    <bullet> Not having traditional instructional faculty is not 
proving to be a problem. We use academics to construct the learning and 
to do the assessments, but not in any traditional instructional role. 
Students, working with the aid of a dedicated SNHU coach (or advisor), 
access rich learning content, their own resources, and each other, and 
it is proving very effective thus far.

    While technology provides the foundation for what we do (including 
a rich CRM for advising purposes and data analytics, a new learning 
platform that we created, and basic online connectivity), the program 
has reaffirmed for us the core importance of human factors. The advisor 
relationship, critical for often unconfident adults who have long been 
out of the classroom, is critical, as is the peer-to-peer learning 
network we help them create. Employers can have a tremendous motivating 
role to play as well.
            how can the government support more innovation?
    A large number of institutions are working on their own CBE 
programs and will innovate in ways different than we have and that's an 
important first principle here: put the focus on outcomes and demand 
transparency and you can worry a lot less about how you get people 
there. In fact, you should encourage as many new pathways as possible. 
Let competencies replace credit hours, that outmoded artifact, and you 
will spur creativity and innovation in an industry that sorely needs 
it. But I would not yet dispense with the credit-hour. We still need to 
know a lot more about how CBE programs best work and we are only at the 
start of this new movement. We do not even yet have an agreed upon 
taxonomy of programs, a nomenclature, nor principles of best practice. 
This should be a time for experimentation and I would urge you to 
continue to create and support safe spaces for innovation (as you have 
done with the creation of direct assessment and the ``experimental 
sites'' authority).
    The big problem facing CBE programs right now is that while direct 
assessment provides a doorway for bold new models, the supporting 
regulatory guidelines for financial aid disbursement were never changed 
to support direct assessment and are still very much tied to time-based 
notions. So we have a fundamental misalignment in which Congress made 
possible alternatives to time, but the Department of Education still 
has regulations that pull proposed models back into the time framework. 
Some examples:

    <bullet> Financial aid regulations require that an institution 
define that a program has met the regulatory minimum for both clock or 
credit hour and weeks of instructional time. A week of instructional 
time is based on a period of 7 consecutive days in which there is at 
least 1 day of instructional time. Competency-based education is self-
paced and not based on ``seat time.''
    <bullet> Current guidelines do not allow us to try to pay for 
performance models in which we only pay for competencies earned. Aid is 
now paid up front, though students have no idea of how fast they will 
proceed through the program. There is no incentive for students to stay 
in school because aid is disbursed up front. There is also no incentive 
for students to move through the program at a faster pace because aid 
is only disbursed per term not based on completion of credits.

    Regulatory concepts like satisfactory academic progress and 
learning activity make little sense in CBE models that focus learning, 
not time.
    Thankfully, Congress created the opportunity for innovative safe 
spaces that could be used to test out changes to direct assessment (and 
other) rules: experimental sites authority that allows for innovation 
around financial aid disbursement. The experimental sites initiative 
allows institutions to ``test'' certain regulatory and statutory 
changes and gather data before implementing a change to regulations or 
to HEA. Given the committee's intent to reauthorize HEA, we were 
pleased to see the Department of Education announce its intent to use 
experimental sites to help inform your policy process. We were also 
pleased to see the introduction of a competency-based demonstration 
project in the House. We need as many safe spaces as we can to test out 
these emerging approaches. We hope to see experimentation around 
financial aid in the CBE context.
    What kinds of things?

    <bullet> The ability to base aid on developing a Cost of Attendance 
(COA) that would allow the institution to use professional judgment for 
all components so that the institution could either limit aid to just 
the cost of tuition or could adjust if the student had a legitimate 
need.
    <bullet> Allow institutions to pay aid after the term has ended and 
student has completed coursework. Perhaps in a shared-risk model.
    <bullet> Allow ambitious students to progress through the program 
at a faster pace and receive aid based on completion, not on 
registration. Allow institution to disburse aid based on the completion 
of competencies and not require students to pause and wait for the 
start of the next term to receive an additional disbursement. Their 
living expense would be paid based on their pace in the program.
    <bullet> Open up the definitions of instructional activity to allow 
for activities that might not be tied to a class or an instructor. For 
example, working with adaptive learning software.
    <bullet> Eliminate the notion of weeks of instructional time to pay 
aid. Students might have to show that they are doing ``something'' 
every 7 days (and the competency-based model as CFA envisioned is more 
fluid with stops and starts). The current regulations don't allow for 
flexibility in instruction and the payment of aid.
    <bullet> Allow FA Administrators to limit loans funds based on 
programs. Competency-based education is low cost. Not only do we want 
to reduce the amount of student debt, there is also a cost to the 
institution to administer aid. Non-need-based aid adds additional costs 
to both the student and the institution. Allowing us to limit aid could 
potentially lower default rates. We know this is controversial, but we 
might at least play with models.
    <bullet> Base payment of aid on a flat rate tuition charge rather 
than a competency or credit-hour standard. We do set a flat tuition 
rate, but aid is paid based on how many competencies are taken, not on 
the tuition. We would want to directly tie the payment of aid to 
tuition and skip the competency requirement.
    <bullet> Add additional resources to financial literacy training. 
Just as students currently have to ``participate'' in Constitution Day 
in order to be able to get aid, students should have to participate in 
financial literacy programs during their course of study in order to be 
able to borrow loan funds and accumulate debt.
    <bullet> Develop programs that allow K-12 students to take 
competency-based programs so that they earn a degree or portion of a 
degree while in high school. The President raised the possibility of 
Pell grants for high school dual enrollment and we think there is no 
reason that motivated high school students can't use CBE programs to 
graduate high school with 1, and even 2, years of college.
    <bullet> Worry less about what kinds of learning count (Prior 
Learning Assessments, for example) and more about the actual outputs: 
what students know. The Federal Government spends billions of dollars 
every year on failure. It's time to pay for success, however students 
cross that finish line.

    While we worked closely with Department of Education officials in 
the approval of CfA and sensed a positive and collaborative spirit, the 
current regulations meant that we were forced to shoehorn our program 
into guidelines that remain time-based, even though our program is 
about actual learning, not time.
    The added advantage of experimental sites is that they provide a 
controlled environment in which we can learn. For example, we still 
lack agreement on what counts as a competency and how to unitize them. 
By analogy, if competencies are replacing the credit hour as currency, 
we still do not have a system of exchange rates. The last thing we want 
to do in CBE is replicate the wasteful and inefficient system of 
transfer credits that costs billions of dollars of tuition money every 
year. Just as we need a taxonomy and nomenclature for the CBE movement, 
we need national standards on the definition of competencies 
established by the academic community. We also need to think through 
how we want competencies to cohere into programs. In short, there are a 
lot of questions and experimental sites can help answer them.
    One of the things that can help is the creation of robust 
accreditation pathways, either as an alternative within the regionals 
or through a newly created accreditation body focused on CBE. Current 
accreditation standards, like current financial aid regulations, were 
built for credit-hour-based institutions. We need to rethink what 
defines quality in CBE programs, what questions we should ask of any 
proposed program, and demand more transparency and data than we 
currently do with traditional programs.
    For all the excitement about MOOCs and technology, the real game 
changer in higher education may be the advent of this new generation of 
competency-based education programs. There is now the opportunity to 
reinvent our business models and make dramatic improvements around cost 
and access and quality. These programs will start with marginalized 
learners like the ones we serve with CfA--all disruptive innovation 
gets traction with those who have few other choices--but CBE will come 
to offer powerful new alternatives for every student market and will 
allow us to rethink education for the next century. In addition, by 
bringing more focus to outcomes, CBE programs also stand to greatly 
improve the performance of the traditional credit-hour-based programs 
that will make up much of higher education for some time to come.

    The Chairman. Thank you very much, Dr. LeBlanc. Thank you 
all very much for your stimulating comments and for your 
excellent written testimonies.
    We will begin a round of 5-minute questions.
    First, both Dr. Kirwan and Mr. Kazis mentioned something 
about being careful with regulations and deregulation. I would 
just tell you that at the request of Senator Alexander, we 
included in our LHHS Appropriations bill through the 
Appropriations Committee I chair for a national study on 
regulations and reporting requirements in higher education. I 
am not certain we are going to get the Appropriations bill 
through or not but nonetheless----
    Senator Mikulski. Oh, yes we are.
    [Laughter.]
    The Chairman. Our distinguished chairwoman is going to 
drive that bill through. If we do not get it, it is not because 
of her; it is because of--well, I will not get into that.
    [Laughter.]
    You could help us by giving us in written form what it is 
that you believe is stifling innovation on the Federal end in 
higher education. What rules and regulations are stifling this 
kind of innovation? If you have something off the top of your 
head right now, I would be glad to entertain that.
    Mr. Kirwan. Mr. Chairman, I would like to provide you with 
a more reasoned and complete list of items, but I will mention 
one--and I think my colleague who just spoke referenced one--
and that is competency-based credit.
    The current financial aid rules do not allow institutions 
to engage, extensibly, in competency-based credits. When you 
think about how the world has changed, the availability of 
educational materials and resources--you think just amongst 
themselves, with all of these courses available that people can 
access for free and learn materials. Why not have a system that 
would allow them to demonstrate they have that knowledge as 
part of their higher education experience and get credit for 
that learning.
    In some ways, it is already part of the higher education 
system. I think most of our institutions accept AP credits; 
that is competency-based credit. We allow some students to take 
credit by examination; that is competency-based credit.
    So this is not a foreign idea to higher education, we just 
need to recognize it and support the kind of change that would 
allow institutions to become more active in this approach.
    The Chairman. Mr. Kazis, do you have something on this?
    Mr. Kazis. Yes, I will mention just a few things that, this 
may seem small bore but I think they are indicative and we can 
go to a larger list as well.
    One that was already mentioned was reinstating year-round 
Pell. If your goal is to accelerate and a lot of the innovative 
programs use the summer, there is an issue there. How to do 
that well is complicated but reinstating year-round Pell is 
important.
    To restore the ability to benefit provisions that were 
eliminated in the fiscal year 2012 Appropriations. Those have 
really hurt a lot of the most innovative career pathways 
programs for underprepared adults by basically cutting off 
their eligibility to be in very effective career pathways 
programs into postsecondary credentials.
    Those are two.
    The Chairman. In keeping with the amount of time we have, I 
have one question left. Dr. Ralls, in Iowa we have seen 
community colleges reach down to high schools with 2 Plus 2 
programs. My experience in higher education was that you go to 
high school, you graduate, then you go to college, and there is 
a big dividing line there.
    I am wondering if there is not more of a role for our 
colleges to play, especially now that we are moving toward 
career and college-based structures in our elementary and 
secondary education. We could certainly align with colleges 
what they need and what a specific career needs, by having more 
colleges reaching down to high schools and connecting with high 
schools in a way that I have seen community colleges do, but I 
have not seen our private colleges or our public 4-year 
universities do much of that.
    Is that something that we should be looking at? I just said 
you, Dr. Ralls, but I am looking at the others too.
    Mr. Ralls. I would say yes and I would also say community 
colleges play a unique role in that regard because I think we 
are the seam in seamless education. We reach down to the high 
schools, but we also are that pathway to 4-year colleges, so we 
often bridge that.
    One of the ways that has been seen in North Carolina is 
through the early college high schools. We have approximately 
one-third of all the early college high schools in the United 
States on our campuses in North Carolina. We have seen 
remarkable results.
    We have seen that if you have high structure, high support, 
but importantly, high expectations that leads to high success. 
About 50 percent last year of our early college high school 
students graduated with high school and their 2-year 
associate's degree at the same time, much faster than we ever 
thought and it is because, I think, of those combinations in 
reaching and pulling that together is what is making that work.
    The Chairman. Is there a role for private universities and 
public 4-year universities to do similar kinds of things?
    Mr. Hall. Senator, at Austin Peay, we actually have a 
partnership with our local school system where we have a high 
school on our campus. It is called The Middle College at Austin 
Peay where students take high school courses and then in their 
junior year, they take one college course a semester from our 
curriculum and in their senior year, they take two college 
courses a semester.
    Those students who are on our campus for 2 years tend to 
wind up with at least 18 hours of college credit when they 
graduate from high school.
    The Chairman. Very good. I will explore it later in my 
second round, but I want you to think about that idea, 
especially in a big system like the University of Maryland 
System.
    Senator Alexander.
    Senator Alexander. Thanks.
    Dr. Kirwan, to pursue what Senator Harkin said. I would 
just like to make a request. With the chairman's permission, 
Senator Burr and I, Senators Mikulski and Bennet, have formed a 
little working group to focus on deregulation of higher 
education. We have asked you and Chancellor Zeppos at 
Vanderbilt, working with the American Council on Education to 
help us do that.
    I want to make a suggestion that is based on something we 
did a few years ago called the America Competes Act. A few of 
us asked the National Academies to give us the 10 specific 
proposals in priority order that we could do to help make our 
Nation more competitive. They got together a very distinguished 
group, and they gave us 20, but they were very specific, and 
they were in priority order, and we have enacted two-thirds of 
them.
    Mr. Kirwan. Right.
    Senator Alexander. So what I would suggest to you is we do 
not have the capacity here to know exactly what to do about 
deregulation of higher education, but to the extent you and 
your colleagues could give to us specific proposals, just as 
you were doing in priority order, you would be surprised how 
many of them are likely to make their way into law.
    So this is serious. It has taken us a few years to get to 
this point, but we have enough horsepower on the subject within 
the Senate, and the time is right that with that kind of 
response from colleges and universities, we will get results. I 
just wanted to mention that. Thank you.
    Mr. Kirwan. It is an assignment I welcome.
    Senator Alexander. And we are also interested, in fact, 
that we have reauthorized the Higher Education Act eight times.
    Mr. Kirwan. Right.
    Senator Alexander. And every time we do it in a well-
meaning way, we end up with new laws and a whole bunch of new 
regulations.
    We need to find ways to say, ``OK, let's weed the garden, 
before we do some more.'' And that is not an ideological 
difference of opinion we have here, but we need to say, ``What 
are the objectives? Now, let's get rid of this stuff and write 
it in plain English and limit the amount of time you are 
spending on all that.''
    So we are dead serious about this and it is a bipartisan 
approach, and we would like to get results on it.
    Mr. Kirwan. Good. Thank you very much.
    Senator Alexander. Mr. Hall, I would like to ask you. How 
do you decide? I am extremely impressed with what you have done 
at Austin Peay and I think you are doing a tremendous job.
    How do you decide who is college ready? Do you just let 
anybody in? How do you know who to let in?
    Mr. Hall. Senator, we use ACT score and sub-scores along 
with high school transcripts.
    Senator Alexander. Are they prepared for college? I mean 
obviously, you are taking a lower definition because 
beforehand, you would have said, ``You shun them off to 
noncredit courses.'' Now you say, ``Come on, in.'' Right?
    Mr. Hall. Yes, what we figured out is that we can help them 
to succeed in college-level credit even if they have some 
deficiencies in particular areas.
    When I say they are not ready for college work, I am 
talking about one specific area, possibly more than one where 
they are not ready in very specific topics.
    Senator Alexander. So generally, they are ready but they 
might be deficient in math.
    Mr. Hall. That is right.
    Senator Alexander. But it is a lower standard than 5 years 
ago or 10 years ago. Right?
    Mr. Hall. No, Senator. It is higher.
    Senator Alexander. Oh, is it?
    Mr. Hall. What we expect them to be able to do is higher 
today than it was 5 years ago.
    Senator Alexander. OK. But what they know when they come in 
is lower.
    Mr. Hall. Except as you know in Tennessee--Tennessee has 
been involved in revamping its high school curriculum. So that 
students are now arriving more prepared than they ever have 
been in the past.
    Senator Alexander. Right.
    Mr. Hall. But there is a sense in which I think that what 
we have been doing here to reformulate developmental education 
is more geared to what has been happening in the past, and 
Tennessee is now doing a better job of getting students ready 
for college level work as they leave from high school.
    Senator Alexander. Right. Dr. LeBlanc, or Mr. Hall, or any 
of you, how do we create a culture where there is more 
replication of these good ideas without making the mistake of 
telling you what to do and interfering with your autonomy to 
make your own decisions? How do we do that? Any advice about 
that?
    Mr. LeBlanc. I would steer you to the distinction between 
sustaining and disruptive innovation. If it is sustaining 
innovation, I think we know how to do that. I think higher 
education has a pretty good track record of sharing through all 
of the sort of traditional ways of conferences, et cetera.
    If you are talking about disruptive innovation, you do not 
clearly have an ecosystem that allows that to happen very 
easily. It is everything from----
    Senator Alexander. I really mean, what do we do as 
legislators? What should we do or not do to create an 
environment in which things like you are doing are more likely 
to succeed on other campuses?
    Mr. LeBlanc. Right. I think you need to make more space in 
terms of the regulatory law that sort of gets some squelches, 
the kind of possibilities that you made available wisely and 
with foresight around experimental sites.
    You said in legislation, ``We are going to allow 
innovation, experimentation.'' And you did not align the 
underlying regulatory law that still tethers you back to the 
credit hour. Navigating that is tremendously difficult because 
that has not changed, there has been no sense for providers to 
build new systems. So if you try to find the necessary student 
information system out there, it does not exist today.
    The Department of Education, when we worked with them, 
worked very hard to make this happen but it was a torturous 
process trying to make regulatory, time-based regulations serve 
legislation that said, ``No, we will welcome alternatives.''
    I think you need to make space in that experiment. You have 
done it in a sense already. You have said, ``We will allow 
experimental sites.'' That has not happened around this area.
    Senator Alexander. Thank you. Yes.
    Mr. Kirwan. If I might. Senator, you ask a very good 
question, what can you do? One thing that occurs to me is to 
provide some incentives to institutions to engage in 
innovation. I think it is a difficult time to talk about new 
money, so maybe it is redirected money at FIPSE or within the 
education division of the NSF.
    But there is, I believe so strongly, a moment of 
opportunity here where the technology has reached the point 
that it really can improve learning. It can lower the cost, but 
there needs to--there is a startup cost for this and some form 
of program of grants to provide the incentives for institutions 
to engage more deeply in these activities, I think, could be 
very, very helpful because there are examples out there of 
success that others can build upon.
    Mr. Kazis. Just to piggyback on that. In my State of 
Massachusetts a few years ago, they competed for a Department 
of Labor Tack Grant, which was to transform workforce programs 
within the community colleges. That is one of a lot of Tack 
Grants, but there is no real mechanism for those Tack Grant 
recipients to learn from each other within the State that 
involves all the colleges in the State, and to learn across 
other Tack grantees.
    So there is a way in which you just should not assume that 
that learning happens easily and it may be that in the 
legislation, carving out some technical assistance, peer 
learning opportunities that get driven down to the field, so 
that the field has the capacity to say, ``This is working. 
Let's move it over here. Let's scale it up.''
    Senator Alexander. Dr. LeBlanc.
    Mr. LeBlanc. Senator Alexander, if I may, your concern is 
about how do you replicate and expand the number of schools 
doing innovative work of the kinds that you have been hearing 
about today, to give you one example.
    We are part of a consortium of 30 institutions right now 
who are working on competency-based models, direct assessment 
of models. The issues they face drill down to accreditation 
which, if you think about it, as a member process tends to 
strengthen the incumbent models and especially if those 
incumbents are threatened by the new models.
    So we need a different pathway, whether it is through the 
regionals or an alternative. Not taking a position on that. But 
these schools will tell you that it is that sort of regulatory 
impediment that pulls you back into the traditional kind of 
models that are getting in the way. These are the University of 
Wisconsin System, these are large players that are out there 
trying to do this work right now.
    The Chairman. We need to move on. In order, I have Senator 
Murphy, Senator Baldwin, Senator Franken, and Senator White-
house.
    Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you very much, Mr. Chairman.
    I think this is maybe the most, or one of the most 
important hearings that we have done all year because we, 
today, have a generation of young families that are just 
absolutely drowning in college debt, and I am frankly 
representative of that cohort, paying for past college and 
desperately saving for future college.
    I guess part of my frustration today is that in hearing 
about all of the amazing work you are doing in terms of 
innovation, I may have not heard enough about how this 
innovation is going to directly lead to college costing less 
for students because ultimately quality is, obviously, 
paramount here. But we cannot survive as a nation if we 
continue to spiral upwards over $1 trillion in student debt.
    So I wanted to explore that for a second, but before I do, 
just to add on to Senator Alexander's line of questioning on 
innovation.
    I am so pleased that you are undertaking an effort to try 
to look at deregulation and I hope that if there is room, I can 
help. We have this three-legged stool of regulation, but it is 
pretty hard to get all of the stools aligned behind a program 
like competency-based learning when you have to get the 
accreditors, the title IV administrators, and the States to 
think outside of the box, and I think that is going to be one 
of the keys to unlocking some of the big steps forward.
    Dr. Kirwan, let me ask you a question about affordability 
because you outlined some really impressive work that you have 
been doing to redesign curriculum. And you talked about the 
fact that one of the things you are looking at is the cost to 
the system of delivering that course.
    Mr. Kirwan. Right.
    Senator Murphy. But what has that meant in terms of the 
cost to the student? Because Connecticut is amongst the States 
that is making some big leaps forward in terms of innovation, 
but public school tuition has gone up by 20 percent in the last 
5 years. So we have not delivered a more affordable product to 
our students, even though we are an innovative State.
    What is going on in Maryland?
    Mr. Kirwan. We have a good story to tell in that regard.
    Since 2008, tuition in the State of Maryland to today has 
gone up a cumulative 8 percent. So we have been able to use 
these innovations and, quite frankly, support from our State to 
hold down the growth in tuition over this period of time, in 
part because of our innovations in the classroom and outside 
the classroom.
    We have really made dramatic progress in tuition. We have 
gone from being the 7th highest tuition State in the Nation to 
the 28th highest tuition State in the Nation. We have gotten a 
lot of help from other States, mind you, because tuition has 
ramped up. But our innovations have led directly to a 
moderation in the cost of tuition.
    Think about that: 8 percent cumulatively since 2008.
    Senator Murphy. Yes. I think you had talked about a lot of 
ways to stimulate innovation. We have also talked about 
accountability. I think part of accountability should be 
affordability.
    Mr. Kirwan. Absolutely.
    Senator Murphy. As we look to different accountability 
measures, maybe through the dispensation of title IV money, 
affordability should be on the table. As it is, a million 
different questions on that one.
    I wanted to talk to you, Dr. LeBlanc, before my time has 
expired about your programming because I think you are right to 
suggest that we need to be doing more to really challenge some 
model breaking here. You answered a question as to why more 
schools are not doing what you are doing, but let me ask a 
specific question about competency-based learning because I 
believe that it is the future, and it is frustrating to know 
there are only a couple of schools that have gotten the 
authorization to do it.
    One of the criticisms of competency-based learning is that 
it could fall victim to the same criticism you had of how 
existing learning is done. That if the competency is 
essentially set by each individual school, it does not 
necessarily tell employers what degree you got if the 
competency is different, and there is maybe a temptation to 
have a race to the bottom in terms of lower competency, shorter 
degree times, less cost.
    If we move in the direction of competency-based learning, 
which I would love to do as a Nation, because I think it is one 
of the ways to deliver a much more affordable product with 
better results and metrics.
    How do we make sure that we have some ability for employers 
to know what they are getting?
    Mr. LeBlanc. As I said, we are very early in this movement 
and there is not an agreed upon understanding of what 
constitutes a well-designed competency rigor level.
    So for my criticisms of the credit hour, if you remove the 
time piece of that, as ill-defined as the credit hour is as a 
unit of learning, we also know it when we see it. Most of us 
who have worked in academia can look at a course and say, 
``This feels like a 3 credit hour course.'' We do not have that 
equivalent ability right now in competency-based education.
    The work that is going on around the consortium I 
mentioned, and others, is really an attempt to try to get some 
common, agreed-upon definitions. And these are our experimental 
sites, that could inform eventual policymaking, to use the work 
of people who are doing this today in the trenches to say, 
``What are you learning and how are you coming to agreed 
upon?''
    The one thing I would say about those 30 institutions, they 
are bound and determined not to replicate the irrationality of 
our current transfer credit system, which counts--according to 
people like Jane Wellman--an enormous amount of waste in the 
higher education system right now.
    So it is a work in progress and we are very early on, and 
that is why we need that space, the safe space to sort of 
figure that out. That is the critical piece.
    Senator Murphy. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murphy.
    Senator Baldwin.

                      Statement of Senator Baldwin

    Senator Baldwin. Thank you, Mr. Chairman. And I do want to 
thank you and our Ranking Member for holding this hearing. It 
has been very, very helpful.
    In my travels around the State of Wisconsin, I have visited 
with a lot of universities and technical colleges, and been 
heartened to see how much innovation is specifically happening 
to support nontraditional students. And by that I mean, older 
students and returning adult students, those who might be 
seeking a specific occupational certificate or something like 
that.
    This population does have unique particular needs and I 
have met some really inspiring figures who are juggling full-
time work, raising families, and still returning to school. It 
is an amazing commitment they are making to work toward a 
certificate or a degree that will give them the tools they need 
to get a higher quality job.
    I am interested in hearing from the panel about their 
thoughts on how current innovations in higher education are 
meeting the needs of this particular group of students.
    And before I turn it over for all of you to comment, I did 
hear you, Dr. LeBlanc, talk about the innovation at the 
University of Wisconsin System. They are preparing next month 
to launch a new program called the UW Flex and it is especially 
focused on returning students that I am describing, but also 
based entirely on competencies. The foundation of this program 
is a movement to competency-based programming. Though I 
recognize that this focus is still in its infancy, but it has a 
real great potential to serve nontraditional students.
    Perhaps we will start with you, Dr. LeBlanc, but I would 
love to hear about innovations focused on this particular group 
of students.
    Mr. LeBlanc. So it will happen there first and I think 
sometimes what clouds our policy discussions is that we do not 
fully recognize the very different student markets that we 
serve.
    When Senator Murphy talks about student loans and people's 
worries about their 9-, 10-, and 12-year-olds going off to 
college someday, that is a particularly expensive model of 
higher education and it is the one that seems least sustainable 
right now because it's about education, obviously, but more 
fully, it is about a coming of age experience and that is a 
very expensive thing to offer and technology does not help very 
much. So I think in the future, we will see an unbundling of 
the coming of age from the academic experience, and then we 
will start to interesting models when that happens.
    We have had a 3-year degree program for 15 years with the 
help of FIPSE and that shaves 25 percent off the cost of 
education. Increasingly, sending your kid off to a campus for 4 
years is a pretty expensive way to come of age.
    But the largest percentage of students in America today is 
nontraditional, post-traditional students; the adults who you 
described so aptly, Senator Baldwin, who is going back and 
juggling family and work, and education.
    We found for all of our use of technology online, really 
strong data analytics, we do 24-7 monitoring of every student, 
every class in ways that we just cannot replicate in a 
traditional delivery model. My experience has been a 
reaffirmation of fundamental human factors, and probably the 
most important relationship with those adult learners is our 
advisors who have a caseload, and who are dedicated to their 
particular students.
    For those learners, it is not about intellectual 
capability. It is about the fact that they have not written a 
paper in 12 years. They may have had mixed academic success. 
And now what they need more than anything is psycho-emotional 
support than academic support. Some of that is academic 
support, some of that is making sure that they are in the right 
prerequisite course, and some of that is steering them into 
tutorial services when they are writing that first paper.
    But I can tell you by listening in on calls that 90 percent 
of the time it is about believing you can do it.
    Senator Baldwin. Thank you.
    Mr. Kazis.
    Mr. Kazis. The issue you raised is critically important and 
Wisconsin is actually--your technical college systems are doing 
a lot of creative work, but a couple of issues relating to the 
needs of this population. As you said, they need to move very 
quickly to credentials that matter in the labor market. So, one 
question is, how do you get the employers really invested in 
the programs? How do you use up-to-date labor market 
information to basically create programs that are streamlined, 
targeted to the needs of the employers in the community?
    This is something that Dr. Ralls was talking about in North 
Carolina, this career pathway strategy is something that many 
States are engaging in. But critical is where the employers--
how do you make sure that they are getting what they need out 
of these programs so that people who do not have a lot of time 
are not taking courses and taking programs that do not lead 
them anywhere.
    Mr. Kirwan. Very quickly, we have within the University 
System of Maryland an institution whose total focus is on the 
working adult. The University of Maryland University College is 
totally online. They live and breathe innovation, and they 
target the working adult.
    For example, they are now developing course materials that 
are online course materials so students do not have to buy 
textbooks. They developed degree programs in consultation with 
industry leaders so that students who graduate from University 
College know they have their credentials to move right into the 
workplace. They have a partnership with every community college 
in the State. They can guarantee a student that if you complete 
your degree at the community college, you can complete your 
degree at University College without any increased tuition.
    They are very focused on serving the population you are 
talking about.
    Senator Baldwin. Dr. Ralls.
    Mr. Ralls. Community college nontraditional students now 
count for two-thirds of all college students in the United 
States. So we have to figure out how to maximize their short 
amount of time. That is technology, one-third of all our 
courses are offered online. Fastest growth area, hybrid areas, 
that is how we structure programs, stackable certification 
models where students do not have to repeat general education 
but they can build on that with different competencies.
    And then how we articulate, for instance, with 
universities. Make sure our articulation agreements are so 
tight they do not repeat English and math, and that is 
something that we are working toward.
    Something that you can do as well is understanding that 
nontraditional students do not look to take summer vacations. 
So issues around Pell grants and other things that are built on 
the traditional do not fit them. How we maximize their time is 
very, very important to help them get the credentials they 
want, which is primarily to get into the workplace.
    Mr. Hall. Senator, in advocating the pathway toward a 
degree is one of the biggest challenges for our students, and 
there are several things cutting against their success.
    One of them is there are some students who kind of wander 
around a little bit and they take more courses than they need 
to because they are not going straightforward to a degree. In 
Tennessee, our students take about 20 percent more courses than 
they need to take for a degree. And the longer they take along 
the pathway, especially for nontraditional students, low-income 
students, the more likely it is that life throws them off-path, 
sends them away, it gets them off track.
    That is why the program we are using, Degree Compass, 
developed by Dr. Tristan Denley is so important. We have seen, 
we calculated across universities the difference in achievement 
for low-
income students, minority students and other students. And we 
are seeing the gap that normally exists without that program.
    When we start using that program and students take the 
recommendations of this very sophisticated program, we are 
seeing that gap narrowing almost to nothing, and I think it is 
because when students are getting solid advice from their 
faculty members and supported by this program, they are able to 
stick to a path and get toward a degree more quickly, and that 
is crucial for low-
income and adult students.
    Senator Baldwin. Thank you.
    The Chairman. Thank you, Senator Baldwin.
    And now, Senator Franken.

                      Statement of Senator Franken

    Senator Franken. Thank you, Mr. Chairman, for calling this 
tremendously important hearing.
    Most of you, if not all of you in your testimony, and just 
now in response to Senator Baldwin, speak to the problem that 
affects so many businesses in Minnesota and around the country, 
which is the skills gap. We have so many businesses that have 
jobs that they cannot fill because they cannot find the 
employees with the skills.
    Mr. Kazis, you discuss helping students advance more 
quickly and efficiently in what you call, ``structured career 
pathways tied to high demand industry sectors.'' And you call 
for, ``Providing incentives for employers and institutions to 
partner in the development and delivery of career pathways for 
students.''
    Dr. Ralls, you focused especially on community and 
technical colleges. You talk about how important it is for 
educational institutions to structure programs with meaningful 
educational offerings so students can leave school with 
something really meaningful for them in their careers. And you 
talk about redesigning courses so that students have the 
competencies needed for tomorrow's workplaces. The point here 
is to provide stronger linkages between educational and 
workforce programs.
    Dr. LeBlanc, in your testimony you talk about the 
competency-based programs you have, and how important it is to 
work closely with businesses to help educate students in the 
skills they need to fill jobs at those businesses. I could not 
agree more with all of you.
    I have legislation, the Community College to Career Act 
Fund which would incentivize partnerships between employers and 
2-year community and technical colleges to rapidly train 
workers and students for those skilled jobs. That sounds like 
exactly what you are talking about.
    What kind of help can we give on the Federal level to 
promote that, to incentivize that, these partnerships between 
business and especially the 2-year community and technical 
colleges?
    Mr. Ralls. Senator, if I may, the employer engagement is 
absolutely key here. At each of our colleges, we have employer 
advisory committees for each program.
    There is also, I think, a new opportunity here and that is 
the growth of a new type of competencies, industry-defined 
competencies, industry credentials, the type of work that the 
National Association of Manufacturers and the Manufacturing 
Institute is doing. That gives us targets that are set by 
industry, and then what we can do is build those into our 
traditional academic programs. That is the stackable 
certification. What you can do around that is help us figure 
out how to measure those. If I could tell you a quick story.
    When we were doing our listening tour--we went to Tri-
County Community College in the mountains. A welding instructor 
came to me and said, ``I know you are looking at all our 
completion rates.'' And he said, ``If you looked at mine, we 
have a less than 10 percent completion rate and I need to give 
you another bit of evidence.'' And he put pay stubs for all 
those, his students on the table, and he pointed out they are 
all getting welding certification from industries through our 
process, but they are not completers.
    Sometimes we have to figure out how to count those students 
who are getting those valuable credentials in our overall 
fabric of what we mean by college completion.
    Senator Franken. But if you get people working while they 
are studying, boy, that speaks to college affordability, does 
it not?
    Mr. Kirwan. Absolutely.
    Mr. Kazis. Just to reiterate what Scott was saying. This 
issue of metrics and performance metrics and knowing, actually, 
that building into accountability systems, not just completion 
but what happens after, how are they doing in the labor market? 
I think those issues are tricky, the data is not that good yet, 
but I think working on that and bringing and figuring out how 
to bring that into accountability discussions will be at the 
State level, it is already beginning to happen, but at the 
Federal level, I think, is also important.
    Senator Franken. Anyone else?
    Mr. LeBlanc. I think the part you cannot address very well 
is that part of the problem, in my view, is that the incumbent 
systems within higher education do not allow for the kind of 
rapid responsiveness typical curriculum committee process--
university governance processes go very, very slowly. And a lot 
of experts would say that the lifespan of a job today is about 
3 to 3\1/2\ years before jobs are either fundamentally 
redefined or moved forward. So there is a black area that 
plagues higher education.
    My colleagues in North Carolina, for example, have sort of 
addressed that very, very energetically but we have to rethink 
how we sort of work within our own systems to be responsive to 
the kind of calls that you are putting forward.
    Senator Franken. Well, I have seen a lot of successful 
partnerships in Minnesota between businesses and community and 
technical colleges. That is something that, I think, does a 
number of things.
    I mean, it speaks to a number of things. College 
affordability, if you can train up people in credentials, 
stacking credentials and get them to work, and then they are 
working and then continue their education while they are 
working, you have, very often business paying, and gladly 
paying for their employees to get further education, and that 
speaks very much to college affordability.
    Also, this just helps the businesses, businesses in 
Minnesota. But there is an estimated 3\1/2\ million jobs that 
are available right now if people just had the skills. And this 
speaks also to our competitiveness globally if we can have 
those workers working and have our businesses have those 
workers working. It puts us on a much more competitive playing 
field, especially when manufacturing is now moving back to the 
United States, moving to Europe, and moving elsewhere back from 
places where there used to be very, very low salaries and where 
manufacturing used to be much, much less capital-intensive.
    I am sorry to have gone over, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Whitehouse.

                    Statement of Senator Whitehouse

    Senator Whitehouse. I, for one, found it very instructive.
    Gentleman, I come to this question without a great deal of 
expertise. I spent considerable time as a prosecutor but in a 
variety of areas of Government, I have bumped into the 
education oversight establishment. As time has gone by, I have 
become increasingly concerned that the gateway to education 
reform is actually education oversight reform both at the 
higher education level and at the elementary and secondary 
education level.
    I am concerned about how much value education oversight 
actually adds these days given the changes that are happening 
in our population and in our technology. I would like your 
thoughts, and we do not have a lot of time, and I know I am 
opening up a huge set of issues.
    Senator Franken. But you are being fascinating, too.
    Senator Whitehouse. What I would like to do is ask you, if 
you would for the record, to take a moment when this is done 
and write down and send to me what your thoughts on the ways in 
which Government's education oversight should be changed to 
better allow for the type of innovation that is needed to 
become more current and less obsolete.
    To avoid some of the hazards that we have seen, for 
instance, gigantic hedge funds coming in and kind of shooting 
under the regulatory system by buying a nearly defunct 
college's license and then turning it into a massive diploma 
mill that has cranked out what appear to be an awful lot of 
worthless diplomas, and that is a very significant tragedy in 
this context because people do not get a second youth to go 
back and redo an education that was a phony one.
    We talked a lot about education reform. I am just becoming 
increasingly concerned that we cannot get to that until we get 
our education oversight mechanism reformed. And I am 
increasingly concerned that both at the local and State and 
Federal level, education oversight is increasingly adding 
little value and creates very significant burdens.
    So if you have responses to that immediately, I would be 
delighted to hear them. If not, I would ask you to try to think 
about it a little bit and send your own thoughts, or if you 
think there have been particularly good work done on this that 
you could refer me to, I would love to have the referrals to 
those articles or commentaries.
    Dr. Kirwan.
    Mr. Kirwan. Yes, Senator. When you say education oversight, 
are you thinking at least in part about the accreditation 
process in the United States?
    Senator Whitehouse. Yes.
    Mr. Kirwan. And I share your sense that it does need to be 
reformed. I think we need it because there needs to be some 
validation about the quality of the institutions and the 
degree.
    Senator Whitehouse. Yes, I do not think that the solution 
is to eliminate it.
    Mr. Kirwan. Exactly, but it does need to be----
    Senator Whitehouse. But it is kind of like driving a Model 
T in some respects.
    Mr. Kirwan. Well, I think we have a system that was created 
in a different era and it does not recognize the new realities 
about how students go to college, the way they can gain 
education. So I absolutely agree with you that there needs to 
be reform in the accreditation process.
    Let me mention one example of an oversight, a metric, that 
is hopelessly out of date. We always look at graduation rates 
by measuring the time it takes an entering freshman student at 
an institution to complete the degree. We look at a 6-year 
period of time.
    My understanding is that 60 percent of the students at any 
institution across the country at any given one time did not 
enter that institution as a freshman. So we are measuring by 
the IPEDS data for graduation rates a very small fraction of 
the students in higher education. And yet, you are using that 
metric to make big decisions about the quality of an 
institution.
    That would be one example of an oversight metric that is 
hopelessly out of date with the realities of today.
    Senator Whitehouse. Yes, particularly if you consider a 
woman with a couple of children who has been in a minimum wage 
job and has worked terrifically hard to improve her abilities, 
who has taken community college courses, has suffered all of 
the burdens on her that that additional commitment of time and 
effort entails with kids, and a job to maintain through all of 
that. I mean, it is a pretty heroic act. And she gets maybe 
two-thirds of the way through, and then the job comes that she 
had hoped for, and she is in a medical office processing 
billing and is being paid two or three times as much, so she is 
done. She does not need to continue her education, and she 
walked away from that experience at the community college 
saying, ``This was a real success for me.'' And there is no way 
that our system, I think, picks up her story and her story is 
an important one.
    Thank you very much. I yield the time.
    The Chairman. Thank you. Senator Warren, if you are ready.
    Senator Warren. I am almost here. Thank you, Senator 
Harkin. Thank you, Mr. Chairman, for putting together this 
hearing. With student debt more than $1.2 trillion and college 
tuition out of reach for so many families, colleges have to 
find ways to serve students better at lower cost. And student 
success is obviously a serious part of the student debt 
problem.
    We have good reason to suspect that students who are 
struggling to repay and are defaulting on their loans are those 
who made it to college, borrowed money for a year or two of 
college, and then were not able to complete, dropped out. They 
got the debt, but not the degree. And so I am interested in the 
new practices that you are talking about here, and how they may 
help those students.
    Dr. Kirwan, what I would like to start with is what kind of 
research or evidence were your universities able to collect on 
your course redesigns before you put them into practice, and I 
am going to ask Dr. LeBlanc about the College for America.
    Mr. Kirwan. Yes. You asked me specifically about the course 
redesign.
    Senator Warren. Yes.
    Mr. Kirwan. What we do is when a redesign proposal comes 
in, we require that it be piloted and it be measured against 
the traditional way of teaching that course.
    Senator Warren. And how do you measure that?
    Mr. Kirwan. The measurement is usually by having the 
students take the same final examination. We have a 
traditionally taught course and a piloted redesign course that 
are side by side, and then the students take the same final 
examination. And that is a typical metric to see if learning 
actually improves.
    Senator Warren. Do you test this multiple times before you 
use a new one or you just try it?
    Mr. Kirwan. Well, it has to be validated through this pilot 
and yes, the pilot runs one time. And if there is demonstration 
that learning has improved and costs have not increased, 
hopefully lowered, then we implement the redesign on a broad 
scale basis.
    Senator Warren. Then can I ask, do you continue to test 
after that?
    Mr. Kirwan. Do we? Well, we test all of our courses.
    Senator Warren. No, no. I know you test them all.
    Mr. Kirwan. Right.
    Senator Warren. But I mean doing the comparative testing 
about the different approaches, or does this become a complete 
substitute?
    Mr. Kirwan. This becomes a complete substitute. We think we 
have evidence that this works and so we then implement it as 
the way that course is taught across the board.
    Senator Warren. And Dr. LeBlanc?
    Mr. LeBlanc. The question is how do we test?
    Senator Warren. I was curious about how you tested for the 
changes, tested in advance, because that is one of the 
questions. How we determine in advance before we make these 
shifts that we believe have some outcome. Or, if we cannot do 
it in advance, how we test it afterwards rather than just think 
we have a good idea.
    Mr. LeBlanc. Yes, no, absolutely. We do a lot of pilot 
testing before we devise. Ours sort of went forward in the 
launch of College for America, but because it was a 
fundamentally different model, there was not a sort of control 
group against which we could weigh this piece. Right?
    Doing this kind of breakthrough work you have to have safe 
space and tolerance for mistake making, which I think is absent 
in our regulatory environment. Our financial aid people live in 
fear that we will get some regulatory piece of this wrong and 
as a result, there is less desire and willingness to push 
definitions, and boundaries, and exploring other ways of 
thinking about this. Let me give you one example.
    We would have preferred that this model do a pay for 
performance financial aid model. You spend a lot of money on 
failure and what we were saying is pay for competencies and pay 
for them along the way, but do not pay for failure. We cannot 
do that. Your current regulations force us to give financial 
aid at the time of registration.
    We would like to exercise more professional judgment on 
determining the total cost of attendance. Our total cost of 
attendance was driven up in our conversations with the 
Department because of all the regulations, not because they 
were doing anything untoward.
    That is where I think there is fundamental ways of 
rethinking and giving some space to try this, and you are not 
going to have the data until you try it.
    Senator Warren. I think that is a very valuable point, and 
one of the things I hope we will pursue is how the regulations 
can be adjusted, not just to permit more innovation, but more 
accountability around that innovation in ways that work for the 
universities.
    Can I just ask one more quick question before we run out of 
time here, because I would love to talk about all of this for a 
very long time? But I wanted to ask you a question, Dr. 
LeBlanc.
    I understand that over the last 10 years, Southern New 
Hampshire University has been engaged in another very 
innovative project with the online university presence. As I 
understand it, because you have not been shy about this 
business model that you have done, that the presence has 
produced about, according to Bloomberg, in 2011, a 41 percent 
profit margin. That is, if I understand this correctly, the 
revenues from the students online exceeded the costs of 
providing it according to Bloomberg, at least, by about 41 
percent. And then in 2013, they estimate, it is about a 22 
percent profit from this. And, you know, those are pretty 
impressive numbers. Those are numbers that would make Goldman 
Sachs envious.
    The question I have about this is that practices like 
online education that drastically lower the costs of providing 
educational services by standardizing the curricula and making 
it accessible because you use adjunct faculty, make it 
accessible more cheaply. The question is, are the savings being 
passed along to the students?
    If you are getting a 41 percent profit margin, it sounds 
like the lower costs of an online education are not being 
passed on. Can you explain that?
    Mr. LeBlanc. Let me first correct the record because there 
is no reason you would have looked at my campus blog where we 
took pains to correct John's inaccuracies in describing it.
    The margins for the online portion only of our institution 
run in the 20 percentile range. So that part is accurate, the 
second, but not the 40; that would be an exorbitant----
    Senator Warren. But that 22 percent is pretty impressive.
    Mr. LeBlanc. The way we think about that is there is 
something fundamentally different about being a not-for-profit 
because we take those surpluses and plow them right back into 
the institution. And we plow them back into the fact that we 
have not, in online, had a tuition increase in 3 years. We have 
increased financial aid, in the cross subsidy to our 
traditional age students, in that much more expensive model. We 
have been able to increase persistence rates by adding many, 
many more advisors and academics.
    The places where we put the money, fair question--how are 
we using that surplus and your fundamental question, which is, 
does it go back into helping students? I would say, yes in 
myriad ways.
    Senator Warren. Although, I do have to say and I'll quit, 
because I know I am over time, but the question about cross 
subsidization that, in effect, you are following two business 
models simultaneously, the students you educate on campus and 
the students you educate online.
    Mr. LeBlanc. Yes.
    Senator Warren. And that you make a 22 percent profit on 
the online students, so that you can build better facilities, 
do other things for the on-campus.
    Mr. LeBlanc. And do things, a lot of things with the online 
students. If you take a look at the investments we have made in 
academics and advising, if you take a look at the impact that 
has had on graduation.
    Senator Warren. Although, I have to push back, that should 
be accounted and reduce the 22 percent. I presume the 22 
percent is net of all the costs, meaning the investments that 
have been made in the online students.
    Mr. LeBlanc. No, the investments trail----
    Senator Warren. Otherwise, you are not getting a cross 
subsidization.
    Mr. LeBlanc. They are put to work in the very next year as 
we continue to make improvements in the program. Fundamentally, 
we are comfortable with the notion that Harvard Business School 
helps underwrite the Divinity School. Right?
    We take a look at the totality of our student body and say,

          ``If our online program produces surpluses and we can 
        plow that back into various areas of the university, 
        including online, including the traditional campus. We 
        are comfortable with that notion.''

    And the reality is, some who come into our undergraduate 
online program earns a bachelor's degree for under $40,000.
    The Chairman. Wow.
    Senator Warren. Go ahead, Mr. Chairman.
    The Chairman. I really appreciate you bringing this up 
because what has been bothering me all along in listening about 
competency-based learning online is that it seems like we are 
almost separating things out here.
    The poorer kids, and the kids that are struggling and 
cannot afford to go and get the kind of socialization that you 
would get by being in a campus-based program, they pay money 
for online courses. You make a profit off of them; they are 20-
some percent. And then that profit is put into the traditional-
based campuses so that the students that are more affluent, who 
are able to go to a campus and be on a campus, are aided and 
abetted by the profits made from the lower income students who 
cannot have that experience.
    Mr. LeBlanc. I am sorry, Senator. I think you are----
    The Chairman. That kind of bothers me.
    Mr. LeBlanc [continuing]. You are conflating the models. 
Let me just, for the sake of accurate information, 90 percent 
of the kids on the traditional campus are getting financial 
aid. I would have to look at Pell grant eligibility, but it is 
probably almost 40 percent of our students on the undergraduate 
campus that are Pell grant eligible. So we serve working class 
kids, first generation kids who need a tremendous amount of 
financial aid to be there.
    They are not the same student body, so the students in our 
online program are overwhelmingly adults who are 40 years old. 
They do not seek to live on a campus. They have all the coming 
of age they can handle. They are juggling family and work; two 
different student populations.
    The Chairman. OK.
    Mr. LeBlanc. So our community, if I can give them a very 
affordable education, we are well priced below the for-profit 
sector, for example, where sometimes people like to compare us. 
We are well priced below many of our online competitors in the 
not-for-profit sector. I am pretty comfortable with where we 
are in terms of price.
    If a surplus gets generated there because of our 
efficiencies and everything else we do in that area, helps 
underwrite other poor kids in other parts of the institution, I 
can live with that. We look at the totality of our mission and 
that is the beauty of being in a for-profit. We are not paying 
dividends. There are no shareholders.
    The Chairman. Is there any evidence that that is what is 
happening?
    Mr. LeBlanc. Yes, it stands in the data. I would be happy 
to followup and share that with you. I can give you profiles of 
the student bodies and I can give you economic profiles as 
well.
    Senator Warren. Can I just add to this, then, because your 
analogy is an interesting analogy here.
    If we think of an online education as the equivalent of the 
Harvard Business School and therefore they are to subsidize the 
Divinity, that is a little different understanding of what 
online education accomplishes and gives us, I think, a little 
different perspective on how we may want to think about online 
education.
    If it is being used to reduce the costs for students who 
otherwise do not have access and everything is driven toward 
how to get that cost down so that they can get an education at 
the lowest possible cost, that is not the model you are 
describing. You described, and I think the words you used, were 
cross-subsidization.
    This raises some other far more profound issues about 
online education and, in general, about when we innovate, where 
the accountability is in innovation, what goals it is trying to 
accomplish, and whether it is achieving those goals.
    Mr. LeBlanc. So the goal you would put before me is: Can 
you make an affordable education available to adults who cannot 
get to a campus? My answer is emphatically yes. And if your 
question is: Should you not be passing more of that $20 million 
back in, in some fashion? I would say we put it in lots of 
investments and it includes our College for America program.
    So part of that $20 million this year sits in reserve and 
now funds the $3 to $4 million loss we will have as we try to 
work through College for America, get it up to operating size, 
et cetera. Those are the ways we use the money and that is an 
incredibly low-cost model that targets the bottom 10 percent of 
wage earners and then organizations with whom we work.
    I think that is a very good use of the money. I have people 
graduating from that program now who make $22,000 and not 
making family sustaining wages. That program does not happen if 
I do not have the resources over here. We are not coming to the 
Federal Government for that R and D money. We are actually 
providing it ourselves, and I think that is a reasonable 
proposition.
    Senator Warren. When you say you are providing it 
yourselves, your online students are providing it.
    And the question is who are those people who are cross-
subsidizing the other parts of the educational undertaking? I 
just think that is an appropriate question for us to inquire 
into.
    Mr. LeBlanc. Fair enough.
    Senator Warren. Thank you, Mr. Chairman.
    The Chairman. Very, very interesting. Do you have any 
followups at all, Senator Franken?
    Senator Franken. I do. I am going to leave this area and I 
think it is a very interesting area to talk about. But I want 
to talk about nontraditional students. Students who are 
entering school as adults, et cetera. I want to talk about more 
traditional students for a second, people who come to college 
after high school.
    Mr. Kazis, as your testimony suggests, dual enrollment in 
early college high school programs are a win-win for students. 
They prepare students for college by providing them with what 
you call a college going culture. These are students who can go 
to a junior college and take a course. They speed up college 
completion by allowing students to earn college credit while 
still in high school, and therefore they are great for reigning 
in the costs of college when you get up to 2 years of college 
credit. Those are 2 years you do not have to pay for if you get 
them in high school.
    In Minnesota, I visited a number of programs. One was at 
Irondale High School that gives students the opportunity to 
earn a 2-year associate's degree while they are in high school. 
The partnership the school has with Anoka-Ramsey Community 
College and it partners students who may not necessarily come 
in with all the preparation necessary to succeed in 
postsecondary programs, and helps them get on a course to 
completion.
    I have a bill that supports students in getting different 
kinds of accreditation and getting in accelerated learning 
programs, which is called the Accelerated Learning Act. I am 
putting a plug in for my piece of legislation. But it helps 
expand access to AP, IB, to dual enrollment, and early college 
programs.
    Can you, Mr. Kazis, talk a little bit more about the 
evidence we have on the role accelerated learning models can 
and do play in preparing students for college, increasing 
completion rates, and reducing college costs.
    Mr. Kazis. Yes, we thank you and we appreciate your effort 
in this and your interest and leadership.
    There has been for the past 10 years, this model of early 
colleges and kind of dual enrollment strategies has been 
developing partly, initially with foundation funding, but now 
more broadly. And the results from early colleges from over 200 
around the country, really sophisticated research, has found 
that 23 percent of the--these are students who are 
underprepared. They are a couple of years back when they 
started high school. They are generally low income, first 
generation college--they will be first generation college-going 
students. And in recent research, 23 percent of these students 
get enough credits for an associate's degree. By the time they 
finish high school, 94 percent get some credits, averaging 
about 36 credits by the time they leave high school to either a 
2-year program or a 4-year program.
    So the potential for saving time and money for students who 
are low income is great, and I think it fits in--as you were 
talking about with AP, IB, dual enrollment, and early college--
and are all a piece of building that momentum to college, and 
it should have cost implications over time for students and 
families.
    Senator Franken. Is it not true that the record of 
students, for example, that take an AP course and get a 3 or 
above, the likelihood that they will go to college and that 
they will complete college has been proven to be much greater.
    Mr. Kazis. Yes, and the same with dual enrollment----
    Senator Franken. Yes.
    Mr. Kazis [continuing]. Programs in general that the 
college entry persistence--those are much greater than their 
peers who would not be in a dual enrollment program, and it 
makes sense.
    Mr. Kirwan. I am a huge fan of early college and I am very 
pleased that you are introducing this bill. I think many of us 
have observed that for a lot of high school students, the 
senior year is sort of a wasted experience. They have met all 
their requirements. So they have, to a certain extent, time on 
their hands.
    Bringing in college courses through partnership with 
community colleges or 4-year institutions to the high school 
can be a huge boost in accelerating college participation and 
decreasing times to degree. So I think this is a very good step 
for us to be taking.
    Senator Franken. Thank you, Mr. Chairman.
    The Chairman. Senator Warren, we have a vote coming up here 
in just a minute.
    Senator Warren. We have a vote, so I will be really quick. 
I just want to focus for a minute.
    There has been a lot of talk about how deregulation could 
encourage more innovation, and give you more opportunities to 
meet the needs of our young people and our people who are 
trying to get a college education and pay for that college 
education. But if I could, I would just like you to think, and 
we can do more of this as questions for the record because I 
know we need to go, is to focus slightly differently.
    What could the Department of Education differently? It is 
one thing to talk about deregulation here, but we also have 
oversight over the Department of Education. And so, if there 
are things you could mention about that and if you have 
something, I would like to start with you, Mr. Kazis, since you 
are from the home of the World Series Champion Boston Red Sox. 
I just wanted to work that in very subtly.
    Mr. Kazis. Many of the kinds of innovations we have been 
talking about today, the Department of Education can, through 
its competitive grant programs, its rules and regulations, help 
shape and can help encourage. I would be happy to put together 
some documentation on this from our perspective.
    [The information referred to may be found in additional 
material.]
    Senator Warren. That would be terrific. Why don't I do 
that? Why don't I just ask that as a question for the record 
because I think both of those are important? What is it that we 
could do as we are working through our current bill, but also 
what could the Department of Education do now to make things a 
little better?
    Mr. Kazis. And your point about innovation and 
accountability is a theme through the whole panel, but it is 
the one thing we have to grapple with and the Department has 
ability there too.
    Senator Warren. Yes. Thank you.
    The Chairman. In my opening statement, I mentioned that 
innovation for innovation's sake does not impress me.
    Mr. Kazis. Absolutely.
    The Chairman. Michael Crow, the president of Arizona State 
University, cited statistics that I think about frequently. If 
you are a high-income, low performing ``C'' student, you have 
an 80 percent chance of graduating from a 4-year college. If 
you are a low-income, high performing ``A'' and ``B'' student, 
you have a 17 percent chance of graduating from college.
    What I want to know is how is innovation going to change 
that or is innovation simply enhancing that kind of disparity? 
How is innovation going to help low-income, high performing 
students get to that 80 percent mark? They can do it. They 
obviously are knowledgeable. They are bright. But the system is 
rigged against them.
    Mr. Kazis. Right. It absolutely is.
    The Chairman. It is just rigged against them. So I want to 
know in all your thinking about innovation, how you change that 
because if you do not, what good is innovation? We are just 
simply plowing that same ground. We are simply keeping the same 
system going and we are probably making it a little bit better 
for both, but we keep that separation. How does innovation 
change that? So I will say that for the record, too, and if you 
have some thoughts on that, I would be more than happy to have 
that input.
    The Chairman. Doctor.
    Mr. Kirwan. Well, innovation, given all the development 
with technology and cognitive science gives us a real chance to 
have higher quality education at a lower cost, and lower cost 
will address the group that you are talking about.
    I am glad you mentioned the under-representation of low-
income students because I think that is one of the greatest 
long-term problems facing our country. Given the importance of 
higher education in terms of lifetime earnings and quality of 
life, if we do not make it possible for more low-income 
students to go to college, we will no longer have the American 
Dream in our Nation.
    The Chairman. Again, I agree. What does innovation do?
    Mr. Kirwan. It is going to help us reduce the cost and make 
it more affordable.
    The Chairman. I have to see that.
    Mr. Kirwan. OK.
    The Chairman. I have to see how that works. Again, what do 
we do to enhance that? What do we do to encourage innovation 
that addresses that disparity and helps low-income, high 
performing students access college and graduate from college?
    To me, again, that has been the whole Federal involvement 
in education from the land grant colleges on: how do we reach 
people, who do not have a lot, to get them an affordable and 
quality education? That is the purpose of title I, of the 
Elementary and Secondary Education Act.
    I will not say we have failed miserably at it; no. We have 
done a lot of good in our country in educating low-income 
students. I think we can be rightfully proud of that. Who was 
it who said earlier that if you are satisfied, you are not 
making progress?
    Mr. Kirwan. Exactly.
    The Chairman. Thomas Edison, if you are satisfied, you are 
not--well, we cannot just say, ``Well, it is OK. We have done 
reasonably good at that.'' I just do not think that is going to 
suit us well for the future. And we have to be dissatisfied 
with some of the situations that are out there, and get 
innovation and competency-based learning to address those.
    I have a lot of questions about competency-based learning I 
wanted to get into. How do you get transfer credits and all 
that, which we have to figure out. If you are in a competency-
based program, and then you go someplace else, how do those 
transfer? I did not even get into that, but I wanted to.
    Mr. LeBlanc. Welcome to conversations, Senator.
    The Chairman. But I welcome your input further on that and 
how we figure that one out, too.
    Well, I thought this was very stimulating. Listening to the 
questions, the answers, the involvement, I thought, was very 
stimulating.
    Again, I will keep the record open for 10 days for further 
questions from other Senators who may not have been able to be 
here this morning because of other committee meetings.
    I invite all of you as we progress on this later this year 
and into next year to continue to give us your thoughts and 
suggestions to our staff. And I hope that we can use our staff 
to reach out to you as we move along with further questions, 
that type of thing, so we get a good Higher Education 
reauthorization bill through.
    There is a vote, but does anybody have one last thing they 
wanted to say for the record before we leave?
    Thank you all very much.
    The committee will stand adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

 Response to Questions of Senator Warren by Richard Kazis, William E. 
                   Kirwan, Ph.D., and Timothy L. Hall
                             richard kazis
    Question 1. Much of the testimony we heard at this hearing focused 
on promoting innovations that are happening at the college level. It 
seems that the Department of Education could be working to develop new 
policies and procedures that would serve students better, too. Some of 
the witnesses testified the Department could loosen regulations to 
allow colleges to innovate. But what about the services that the 
Federal Government provides directly to students, like information, 
financial aid applications, and student loans?
    Answer 1. Thank you for the opportunity to respond to this 
thoughtful question. The Senator is indeed correct that our panel 
focused primarily on strategies to increase innovative program design 
and delivery at the college level. At the same time, as the Senator 
notes, the Department of Education provides a set of direct services to 
students--consumer information, financial aid information, and student 
loans--where innovation would be welcome as well.
    We know that there are many organizations weighing on how the 
Department of Education can improve its services to students, 
particularly related to financial aid, thereby improving both access 
and success. (The Gates Foundation-funded RADD project has surfaced 
many concrete proposals--and the organizations working on those initial 
papers and now the second round of reports have a range of provocative 
and research-based responses to this question.
    We see a few priorities that we think the Department can advance 
through its services, mostly related to better information and use of 
competitive grants to promote innovation. These include:

    <bullet> The Department can help ensure that schools, college 
counselors, colleges, and partners with schools have the financial aid 
information they need to help students and encourage students to look 
at and apply for aid as early as possible.
    <bullet> The Department can also continue to use vehicles like 
College Access Challenge Grants, its FAFSA pilot, and other outreach 
efforts to promote student awareness, understanding, and uptake of the 
most appropriate student aid for their situation.
    <bullet> The Department can use existing grant vehicles, such as 
College Access Challenge Grants, high school reform grants, i3, school 
improvement grants and other innovation grants to promote the inclusion 
of intermediary organizations and guidance counselors in partnerships, 
so that they are prepared to use current labor market information, 
postsecondary outcomes data, and other data to inform student decisions 
about their ``best bet'' postsecondary pathways.

    Question 2. What can the Department of Education do to make it 
easier for students to go to college, pay for it, and get a degree?
    Answer 2. Again, we appreciate the direction of this question--to 
identify where the Department of Education already has authority and 
capacity to advance the access and success agendas in higher education. 
Here are a few ideas from Jobs for the Future's vantage point:

    <bullet> In the October 31 hearing, there were several mentions of 
the Department's experimental site authority. One area for exploration 
is an experimental site that tests more flexible models of financial 
aid better suited for non-semester and competency-based courses. The 
Department could offer an experimental site allowing students to 
receive aid for short-term stackable credentials and to receive the aid 
as they complete each course or credential, rather than having to sign 
up for all aid at the beginning of the semester. Current 
inflexibilities have created great difficulties for colleges and 
students in programs where progressing to the next credential or course 
is contingent upon successful completion of a prior course. These 
courses often don't fit neatly into a semester-long schedule, and thus 
don't fit neatly with the way Federal aid is currently made available. 
State systems and schools have had to go to great lengths to create 
``workarounds'' so that students can receive aid for these accelerated, 
non-semester-based pathways that are often competency-based.
    <bullet> We have been made aware of an obstacle that colleges in a 
number of States are running into in serving Veterans. (This may be 
more of an issue for the Veterans Administration than the Department of 
Education. The issue is this. The VA has decided that developmental 
math delivered by computer in what is known as the ``emporium model'' 
is independent study and therefore not eligible for aid, rather than a 
course that would be eligible. In some States, this model, with 
instructors circulating around a lab during a scheduled class time, is 
the primary strategy for accelerating math remediation. To call this 
independent study is misguided--and an obstacle to many veterans 
progress.
    <bullet> The elimination of the Ability to Benefit provision for 
potential students who lack a high school diploma or its equivalent has 
been a huge blow to financing of and access to evidence-based, 
successful career pathways programs that serve this population. The 
Department can work with Congress to restore Ability to Benefit, at a 
minimum for career pathways programs that meet certain design criteria 
and have a track record of success.
    <bullet> Given the strong research evidence of the effectiveness of 
early college high school models to help underprepared young people 
accelerate to college readiness and college credits while still in high 
school, the Department can explore running an experimental site to 
allow high schools students enrolled in early college programs or other 
dual enrollment programs leading to postsecondary credential pathways 
to access Pell grants for the credit-bearing postsecondary courses they 
take in high school. The Department should encourage those courses to 
be part of a postsecondary pathway to a credential so that students are 
accelerating time to completion and saving money.
    <bullet> The Department can continue to use technical assistance 
funds (e.g., School Improvement Grants, Race to the Top, High School 
Graduation Initiative) to allow States and local school districts to 
learn from each other about promising and effective innovations in K-12 
through postsecondary success pathways and their key components.
    <bullet> The Department can continue to include postsecondary 
outcomes in K-12 and postsecondary grant and waiver criteria so that 
students and families gain better information on how well programs are 
preparing students for college and helping with the transition to 
college, and where improvements are needed.
    <bullet> The Department can continue its work to better align 
expectations, definitions, and outcomes in guidance and regulations 
across K-12, Career and Technical Education, and Adult and 
Postsecondary Education to ensure a focus on secondary and 
postsecondary success, with a particular focus on credentials and 
degrees with value in the labor market, where appropriate.
                           william e. kirwan
    Thank you for the opportunity to testify before you and the other 
members of the Senate Health, Education, Labor, and Pensions Committee 
regarding higher education. I hope that you and your colleagues found 
the information helpful.
    I am responding to your followup questions stated below.
    Question. Much of the testimony we heard at this hearing focused on 
promoting innovations that are happening at the college level. It seems 
that the Department of Education could be working to develop new 
policies and procedures that would serve students better, too. Some of 
the witnesses testified the Department could loosen regulations to 
allow colleges to innovate. But what about the services that the 
Federal Government provides directly to students, like information, 
financial aid applications, and student loans?
    What can the Department of Education do to make it easier for 
students to go to college, pay for it, and get a degree?
    Answer. With respect to student loans, we would recommend 
Simplifying the Free Application for Federal Student Aid (FAFSA) by no 
longer requiring students to answer the IRS-related questions. While 
the FAFSA has gotten increasingly shorter and easier over the years, 
and the IRS Data Retrieval process has been put into place, the FAFSA 
still requires students to provide the answers to the IRS-related 
questions and the match double checks them. This is redundant and 
burdensome for students.
    We would recommend making Pell grants available to students year-
round. Non-traditional students, who are now the majority of students 
in higher education, know no boundaries on the school year. They take 
classes whenever they can and that often means year-round. Faster 
college completion is a national goal and administration of the Pell 
grants must catch-up with the times. Many studies have shown that 
students do better when they can progress uninterrupted through their 
program coursework. Also related to the Pell grants we would recommend 
that students who are in certificate programs or programs that lead to 
acquiring a license should have access to Pell grants. Certificate or 
Licensing Programs often better serve the workforce needs and are more 
manageable than embarking on a Bachelor's degree. Without these 
credentials, many students will not be able to get, keep or advance in 
a job. These programs are no less valuable to society or to students 
than the traditional 4-year programs. The market place has changed; the 
workforce is changing and the regulations governing the Pell grant need 
to change with them. It is counterproductive to deny earnest students 
pursuing credentials that will help them advance themselves this type 
of financial aid. Allowing Pell grants for students in Certificate 
Programs would also help students enrolled in post-baccalaureate 
certificates. Currently Pell grants are not available at all once a 
student has obtained a first baccalaureate degree.
    Institutions should be allowed to package and disburse student 
loans with much greater flexibility. For many students whom are 
professionals with families, some loan requirements just do not apply. 
These schools should, for example, be able to eliminate or reduce loan 
allocations for living expenses, which are often not applicable to 
their students. This one change could reduce fraud, reduce the amount 
of refunds, and decrease student loan debt by decreasing ``over 
borrowing.'' Currently, this is prohibited by law. 20 U.S.C. 1087bb.
    We also feel that students should be able to draw financial aid for 
hybrid, or blended programs, containing both direct assessment and 
traditional classes, so students do not need to limit themselves to one 
type of course of study. While the Department of Education has recently 
made direct assessment programs eligible for Federal financial aid, 
hybrid models containing both direct assessment and regular classes are 
still not eligible for Federal aid. Our institutions would like to 
offer students the opportunity to receive Federal financial aid for 
programs that allow them to complete their degrees using a variety of 
methods, as this would help meet Federal and State degree achievement 
goals and be much more cost-effective for students. As it stands now, 
they cannot. Federal financial aid should be made available to students 
who demonstrate college-level competencies no matter when it was 
learned. The Federal financial aid rules would also need to be modified 
in order to align with this new model of measuring academic 
achievement. Financial aid would need to be awarded when a student 
passes the learning assessment and not necessarily just at the end of 
the semester or term or course. These changes are critical if prior 
learning programs are going to fulfill their promise of credentialing 
learning in subjects students have already mastered to allow them to 
accelerate their graduation by months and sometimes years, decreasing 
both the time and money involved in getting a degree. Without this 
change, prior learning programs are needlessly hampered.
    We also support increasing the annual and aggregate maximum 
borrowing amount under the Federal direct Stafford program and at the 
same time, adding an annual and aggregate maximum under the Federal 
direct Graduate PLUS program. If graduate/professional students could 
borrow more under the Stafford and a cap issued for the Graduate PLUS, 
students would make better financial decisions in choosing a program. 
These changes would also require graduate/professional schools to look 
at the indirect cost included in the cost of attendance.
    An interesting concept would be to reframe the financial aid system 
so that students start with loans that are progressively forgiven or 
converted into grants as students make progress toward degree 
completion. The current system is actually a disincentive to 
completion, but a loan to grant model would promote the kind of 
completion behavior the Department of Education is striving for.
    Our institutions have found the Federal Work Study Program to be 
highly effective and feel that this program should be enhanced. These 
opportunities could be used, more directly, to provide professional 
development experiences for students and assist them with career 
prospecting--supporting internships, research, practical application 
and community service. Having a more targeted and more focused Federal 
Work Study program could be an essential part of helping students 
market themselves to employers post-graduation.
    Changes need to be made in the Integrated Postsecondary Education 
Data System (IPEDS). Cohorts should be tracked on a calendar year to 
include various start dates throughout the year, transfer students and 
part-time students should be tracked as separate cohorts, and part-time 
students should be tracked at 200 percent of ``normal time'', i.e., 8-
year graduation rates for bachelor's degrees and 4 years for 
associate's degrees. Because the IPEDS only track students going to 
college for the first time, who go full-time, entered in the fall of 
the year and graduate from the same institution where they started, it 
cannot track non-traditional students. Because non-traditional students 
now outnumber traditional students, the IPEDS can tell us next to 
nothing about the vast majority of students in higher education today.
    I want to thank you for the opportunity to provide additional 
information to your questions, and hope that this information is 
helpful as you and your colleagues move through the process of 
reauthorizing the Federal Higher Education Act.
                            timothy l. hall
    Question. Much of the testimony we heard at this hearing focused on 
promoting innovations that are happening at the college level. It seems 
that the Department of Education could be working to develop new 
policies and procedures that would serve students better, too. Some of 
the witnesses testified the Department could loosen regulations to 
allow colleges to innovate. But what about the services that the 
Federal Government provides directly to students, like information, 
financial aid applications, and student loans?
    What can the Department of Education do to make it easier for 
students to go to college, pay for it, and get a degree?
    Answer. The Federal Government plays an important role in providing 
information to students about institutional quality. Unfortunately, 
it's current metrics--including retention and graduation rates for 
first-time, full-time students--frequently confuse selectivity with 
institutional quality. Current metrics have the perverse effect of 
devaluing the contributions of institutions that serve low-income, 
adult, and minority student populations. Furthermore, by focusing on 
first-time, full-time students, current metrics make invisible and 
undervalue institutional service to transfer and part-time students.
    The Federal Government continues to play a crucial role in 
providing access to higher education through financial support. The 
goals of college completion would be better furthered, though, by 
allowing use of the Pell grant during summer terms. Summer school 
enrollment at Austin Peay State University, where more than half the 
students are Pell eligible, has declined since student ability to use 
the Pell grant during the summer ended.
    Obtaining admission to and financial support for college is the 
most complicated series of transactions most people will ever navigate. 
The Federal Government, through the Department of Education, should 
make simplification of this process a priority. Linking FAFSA with 
Federal income-tax data was a major step forward and a model for other 
similar strategies.
    Current attention to default rates for Federal student loans is 
appropriate, but must be calibrated so as not to penalize institutions 
serving low-income students. In my own State of Tennessee, the loan 
default rate among public institutions almost perfectly tracks the 
number of low-income students served by particular institutions. This 
correlation suggests that default rates have little to do with 
institutional performance and everything to do with student 
demographics. A failure to account for this reality will have the 
perverse effect of frustrating access to higher education by the 
students most in need of that education.

    [Whereupon, at 12:08 p.m., the hearing was adjourned.]

                                   [all]

      
</pre></body></html>
